                                                               Semiannual Report for Transmission to Congress




              INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the specific pages in this semiannual report to the reporting
requirements prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.

      IG Act
                                             Reporting Requirements                                         Page
    References
   Section 4(a)(2)    “review existing and proposed legislation and regulations…make                        41-43
                      recommendations... ”
   Section 5(a)(1)    “description of significant problems, abuses, and deficiencies... ”                    1-28
   Section 5(a)(2)    “description of recommendations for corrective action…with respect to                  1-28
                      significant problems, abuses, and deficiencies... ”
   Section 5(a)(3)    “identification of each significant recommendation described in previous              29-31
                      semiannual reports on which corrective action has not been completed... ”
   Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution          1-28
                      and convictions which have resulted... ”
   Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section             N/A
                      6(b)(2)... ” (instances where information requested was refused or not
                      provided)
   Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report             45-53, 54
                      issued...” showing dollar value of questioned costs and recommendations that
                      funds be put to better use.
   Section 5(a)(7)    “a summary of each particularly significant report... ”                                1-28
   Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar      55
                      value of questioned costs... ”
   Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar            55
                      value of recommendations that funds be put to better use by management... ”
   Section 5(a)(10)   “a summary of each audit report issued before the commencement of the                   55
                      reporting period for which no management decision has been made by the end
                      of reporting period... ”
   Section 5(a)(11)   “a description and explanation of the reasons for any significant revised              N/A
                      management decision... ”
   Section 5(a)(12)   “information concerning any significant management decision with which the             N/A
                      Inspector General is in disagreement... ”
   Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial                N/A
                      Management Improvement Act of 1996... ” (instances and reasons when an
                      agency has not met target dates established in a remediation plan)
   Section 8(f)(1)    “information concerning the number and types of contract audits... ”                    56
Semiannual Report for Transmission to Congress




                                   This page left blank intentionally
                                                            Semiannual Report for Transmission to Congress



                                            FOREWORD
        One of the principal duties of an inspector general is to encourage good leadership and to
serve as a role model for other leaders. On December 13, 1777, the Continental Congress resolved
to establish an Inspector General of the Army and directed that one of his duties is to ensure “that
the officers command their soldiers properly, and do them justice.”1 One of the stated purposes of
the Inspector General Act of 1978, as amended, is “to provide leadership.”2 The crucial role of
leadership in maintaining military good order and discipline is highlighted in our recent report
addressing sexual assaults at the Service Academies, our review of the accountability of
Department of Defense (DoD) and Air Force officials in the structuring and negotiation of the
proposed lease contract for the KC767A Tanker aircraft program, and in our investigations of the
role of the Former Principal Deputy Assistant Secretary of the Air Force in the acquisition of
tanker aircraft and other Air Force contracts.

        This report for the period of October 1, 2004 to March 31, 2005 highlights significant
results and accomplishments of the Office of the Inspector General (OIG), including:

Public Confidence in the Integrity of DoD Programs and Operations

       •   Published the Report on the Service Academy Sexual Assault and Leadership Survey, the
           first-ever survey of all three Service Academies to collect cadet and midshipman feedback
           on matters of sexual assault, reprisal, and associated leadership challenges. It is intended to
           assist senior Department and Academy leaders, and Members of the Congress, in
           identifying changes and adjustments to improve future Academy operations, gender
           climates, and perceptions;

       •   Issued an OIG position supporting a DoD IG audit opinion on DoD internal control over
           financial reporting similar to auditor attestation required over corporate financial internal
           controls by the Sarbanes-Oxley Act;

       •   Produced KC-767 tanker lease documents in coordination with the DoD and White House
           Counsels; performed a completeness review to ensure documents gathered represented all
           the relevant and responsive documents, and initiated a management accountability review
           of KC-767 tanker lease decisions;

       •   Completed an evaluation of the DoD Trafficking In Persons awareness-training package
           designed to inform and educate Service members on the DoD “Zero Tolerance” Policy;

       •   Received an unqualified opinion that the FY 2004 OIG financial statements, “present
           fairly, in all material respects, the financial position, net cost, changes in net position,
           budgetary resources, and financing of the OIG” (see page 15, and Figure 1 on page 16).

   1. Journals of Congress, December 13, 1777.
   2. Inspector General Act of 1978, as amended, 2(2) (“to provide leadership and coordination and
      recommend policies for activities designed (A) to promote economy, efficiency, and effectiveness in the
      administration of, and (B) to prevent and detect fraud and abuse in such programs and operations”).
                                                    Semiannual Report for Transmission to Congress


Support of the Global War on Terror

       •   Completed an evaluation of DoD’s Critical Infrastructure Protection Program and made
           four recommendations regarding doctrine, priorities, responsibilities, and organizational
           structure. The Assistant Secretary of Defense for Homeland Defense concurred with our
           report and recommendations;

       •   Continued to support the U.S. Government’s effort to create an “Iraqi Academy for
           Principled Governance” to promote and sustain an anti-corruption culture throughout the
           Iraqi government. A “rear element” of DoD OIG personnel is coordinating activities in
           support of a three-part process, with 28 Ministry IGs, a Board of Supreme Audit and a
           Commission on Public Integrity;

       •   Completed a “Management Assist” at the request of the Inspector General of the Coalition
           Provisional Authority, focusing on the quality of CPA-IG (now “Special IG for Iraq
           Reconstruction”) audits; follow-up still in progress.

Transformation

       •   Selected the first-ever “General Counsel & Assistant Inspector General (Office of Legal
           Counsel)” for this Office of Inspector General;

       •   Transferred proponency for the “Commander-in-Chief’s Challenge” initiative to the
           Director, Joint Staff, for empowering DoD operational commanders to utilize existing
           fitness tests as a means of inspiring healthy competition, jointness, and character
           development in support of DoD missions.
Semiannual Report for Transmission to Congress                                                                         Table of Contents


                                                TABLE OF CONTENTS

                                                                                                                                        Page

CHAPTER ONE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Joint Warfighting and Readiness. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Homeland Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
  Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  Acquisition Processes and Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  Logistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
  Infrastructure and Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
  Other Significant Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

CHAPTER TWO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
  Deputy Inspector General for Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
  Deputy Inspector General for Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
  Deputy Inspector General for Intelligence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
  Deputy Inspector General for Inspections and Policy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
  Office of Communications and Congressional Liaison . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

APPENDICES
  A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . 45
  B. DoD OIG Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54
  C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
  D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
  E. Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . . . . 57

FIGURES
   1. DOD OIG FY 2004 Financial Position.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
   2. Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
   3. DoD Total Senior Official Cases - FY 00 - FY 04. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
   4. Nature of Substantiated Allegations Against Senior Officials
          During 2nd Half FY 04 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
   5. Intelligence-Related Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
Table of Contents                      Semiannual Report for Transmission to Congress




                    This page left blank intentionally
Semiannual Report for Transmission to Congress                                           Chapter One




CHAPTER 1 – SIGNIFICANT ACTIVITIES

                            The Department of Defense Inspector General (DoD IG) annually
                            assesses the most serious management and performance challenges
                            faced by the Department of Defense (DoD) based on the findings and
                            recommendations of audits, inspections, and investigations conducted
                            during the year. The Inspector General Summary of Management
                            Challenges is included in the Department of Defense Performance and
                            Accountability Report. In the Fiscal Year 2004 Performance and
                            Accountability Report, the following challenges were identified:

                                      Joint Warfighting and Readiness
                                      Homeland Defense
                                      Human Capital
                                      Information Technology Management
                                      Acquisition Processes and Contract Management
                                      Financial Management
                                      Health Care
                                      Logistics
                                      Infrastructure and Environment

                            This chapter summarizes some of the significant activities of the
                            Department of Defense Office of Inspector General (DoD OIG) and
                            other DoD oversight organizations as they relate to these management
                            challenges.

JOINT WARFIGHTING           U.S. forces continue to transform to meet new and evolving threats, both
AND READINESS               traditional and asymmetrical. Operations IRAQI FREEDOM and
                            ENDURING FREEDOM reinforced the need for the services to
                            continue to train together in order to fight as a team. The experiences
                            gained in those operations, together with the ongoing efforts aimed at
                            transforming U.S. forces, create a changing environment unlike any
                            experienced in a long time. These experiences and efforts, individually,
                            as well as collectively, challenge the DoD to ensure that U.S. forces are
                            ready to carry out their assigned missions, while addressing their
                            individual immediate needs. Many of the other challenge areas
                            encompass those functions that support joint warfighting and readiness
                            issues.




                                                    1
Chapter One                              Semiannual Report for Transmission to Congress




              The DoD OIG organized and supervised workshops and other
              collaborative activities with inspector general (IG) counterparts of the
              Joint Staff, Combatant Commands and Military Services. The combined
              team completed the final version of the DoD Directive 5106.4,
              “Inspectors General of the Combatant Commands,” and completed the
              draft version of the associated Instruction. The Directive establishes the
              policy, guidance, and training to institutionalize the roles, missions,
              functions, and relationships of Combatant Command Inspectors
              General. This initiative will standardize procedures and enhance the
              functions of the respective Inspectors General to support their
              Combatant Commanders. As a parallel effort, and with cooperation from
              the staff at the Army Inspector General University (TIGU) and the DoD
              OIG Dean of Instruction, a task force developed the new Combatant
              Command and Joint Inspector General Course. This course will be
              prototyped in May 2005 at TIGU, Fort Belvoir, Virginia.

              The DoD OIG concluded a 10-month follow-up review of the DoD fire
              and emergency services program. Results of this review reinforce the
              need to revise the DoD Fire and Emergency Services Strategic Plan. The
              Strategic Plan should establish a long-term approach to resolving human
              capital and fire and emergency services challenges. The project team is
              validating data and preparing a Management Letter that will recommend
              program improvements and suggest management actions.

              The DoD OIG supported the U.S. Liaison to the Iraqi Inspector General
              System in an interagency venture between the DoD IG and the Special
              Inspector General for Iraq Reconstruction (SIGIR). The purpose of the
              joint effort is to help the Iraqi government establish an Iraqi IG system
              as part of the Iraqi Anti-Corruption program. The centerpiece for this
              initiative is the establishment of the “Academy of Principled
              Governance.” The vision for this Academy is to provide anti-corruption
              training and education for Iraqi auditors, investigators, and inspectors. In
              support of the training program, DoD IG hosted a group of auditors from
              the Iraqi Board of Supreme Audit during their visit to Washington, D.C.
              They were briefed at DoD, GAO, DoS, USAID, and at the Army TIGU.

              An Army Audit Agency report found that the Army’s process for
              transferring soldiers separating from active duty to the Individual Ready
              Reserve was not effective because the information on Individual Ready
              Reserve soldiers was not transferred between personnel systems. In
              addition, transition center personnel selected the wrong separation
              circumstances in the personnel system. The Army also did not have
              information needed to mobilize 16,589 Individual Ready Reserve


                                   2
Semiannual Report for Transmission to Congress                                                         Chapter One




                                  soldiers because their automated records lacked information, such as a
                                  correct address.

                                  An Air Force Audit Agency review found that the Air Force did not
                                  effectively manage chemical warfare defense equipment. Personnel did
                                  not (a) accurately record mobility bag contents and lot or contract
                                  number information for C-1 mobility bags; (b) properly account for
                                  chemical warfare defense equipment inventory; (c) identify all chemical
                                  warfare defense equipment within the inventory system as “reportable”
                                  to higher headquarters; and (d) provide hands-on protective overgarment
                                  training to 91 percent of deployable personnel and 94 percent of
                                  deployed personnel reviewed.

                                  Agents from the four Defense Criminal Investigative Organizations
                                  (DCIOs)1 provide investigative support to the DoD’s Global War on
                                  Terrorism and lend their assistance in humanitarian efforts around the
                                  world.

                                  In Iraq, Air Force Office of Special Investigations (AFOSI) technical
                                  services trained agents found new venues to employ their skills and
                                  equipment by assisting in identifying and tracking Iraqi insurgents that
                                  pose a threat to coalition forces. Several operations led to the
                                  apprehension of insurgents and eliminated immediate threats.

                                  When the Tsunami hit Southeast Asia, the Air Force quickly responded
                                  by creating a path for relief assistance. Within 36 hours, U.S. aircraft
                                  launched for Thailand, on a mission to save lives, mitigate suffering and
                                  provide relief assistance to the region. On December 28, 2004, the
                                  AFOSI deployed the first of eight agents to support Operation Unified
                                  Assistance, Tsunami Relief Operations in Southeast Asia. Agents from
                                  AFOSI conducted counterintelligence support and force protection for
                                  18,000 deployed DoD personnel and 1,950 aircraft sorties responsible
                                  for delivering over 2,000 tons of supplies and 150,000 gallons of
                                  drinking water.

                                  Prisoner/detainee abuse allegations continue to receive attention. The
                                  task force of investigators and analysts formed by the Deputy Inspector
                                  General for Inspections and Policy continues to review closed


1. The Defense Criminal Investigative Organizations (DCIOs) are the Defense Criminal Investigative Service (DCIS), a
component of the DoD OIG; the U.S. Army Criminal Investigation Command (USACIDC); the Naval Criminal
Investigative Service (NCIS); and the Air Force Office of Special Investigations (AFOSI).




                                                          3
Chapter One                                   Semiannual Report for Transmission to Congress




                   investigations conducted by the military criminal investigative
                   organizations into allegations of abuse by U.S. forces against prisoners,
                   detainees, and persons under U.S. control in Iraq, Afghanistan and
                   Guantanamo Bay. The task force is charged with ensuring the
                   investigations are thorough and timely in accordance with DoD and
                   Service policies and procedures.

HOMELAND DEFENSE   The global war on terrorism continues to heighten the level of threat
                   from adversaries of the United States. These adversaries may use
                   weapons of mass destruction, such as chemical or biological weapons, or
                   they may attempt to use information warfare to attack the DoD
                   information structure. As such, homeland security continues to be a
                   priority across the Federal Government.

                   The DoD established an Assistant Secretary of Defense for Homeland
                   Defense and the U.S. Northern Command as part of an effort to
                   coordinate departmental homeland defense policy and resources.
                   Additional initiatives include working toward better coordination of
                   policy and resources at the Federal level with the Department of
                   Homeland Security.

                   As requested by the Assistant Secretary of Defense for Homeland
                   Defense (ASD(HD)), the DoD OIG Inspections and Evaluations
                   Directorate completed an evaluation of the Critical Infrastructure
                   Program (CIP). ASD (HD) requested the DOD IG review the CIP
                   organization and policy, validate the efficiency and effectiveness of
                   vulnerability assessment methodologies, and review vulnerability
                   assessment procedures related to data collection and analysis. The report
                   delivered to ASD(HD) on February 17, 2005, identified four major areas
                   for management action: (1) integration of program concepts, (2)
                   completion of assessment standards, (3) geographic rationalization of
                   civilian oversight, and (4) coordination of program responsibilities
                   within OSD. Additionally, the report recommends the establishment of a
                   defense field activity as a means to efficiently unify concepts, integrate
                   standards, coordinate assessments, collate and analyze data, and monitor
                   implementation.

                   A Naval Audit Service report about the Navy antiterrorism risk
                   assessment management approach for Navy Region Southeast found that
                   criticality, local vulnerability, and threat assessments were not
                   consistently prepared and a system to track and update vulnerabilities
                   until mitigated was not fully implemented. In addition, a centralized




                                        4
Semiannual Report for Transmission to Congress                                            Chapter One




                             method had not been established that would more efficiently procure
                             Antiterrorism/Force Protection requirements at multiple installations.

                             The DCIOs participated in worldwide joint terrorism task forces, sharing
                             and acting on information, and relying on the unique skills and
                             investigative specialties of the participating organizations to ensure no
                             potential threat goes unchecked.

                             Examples of investigative cases involving Homeland Defense issues are
                             highlighted below.

                             A top 100 Defense contractor, located in Indiana, agreed to pay a $8
                             million fine and civil penalty as part of a settlement to resolve
                             allegations of violations of the Arms Export Control Act. A joint
                             investigation discovered that the contractor sent technical data for an
                             interferometer, which is controlled under the International Traffic in
                             Arms Regulations, to a company located in Quebec. This action
                             exceeded the approved Technical Assistance Agreement. The
                             interferometer is used on a joint weather sensing satellite program.

                             Based on information developed through a joint undercover operation, a
                             California exporting company was fined $500,000 and sentenced to 5
                             years of corporate probation following a guilty plea for selling U.S.
                             Munitions List items on the international market. The company was
                             obtaining components for various U.S. military aircraft and surface to air
                             missile systems and knowingly attempting to export them to the
                             People’s Republic of China. The company had not applied for, nor
                             received, export licenses for these items.

                             A DoD contract translator at Guantanamo Bay was sentenced to 20
                             months in prison and 2 years supervised release after pleading guilty to
                             false statements and unauthorized possession of classified information.
                             After spending time in Egypt, the translator traveled to Boston where a
                             routine customs examination of his luggage found approximately 30
                             computer diskettes. A subsequent investigation determined that one of
                             the disks contained a large amount of classified DoD and other
                             Government information.

                             A South Korean national, who was a principal in a Malaysian firm, is
                             awaiting sentencing after pleading guilty to charges of violations of the
                             Arms Export Control Act and conspiracy. A joint investigation found
                             that the company submitted fraudulent end user certificates for the
                             purchase and export certificates for military helicopter engines for use


                                                  5
Chapter One                                Semiannual Report for Transmission to Congress




                by the Malaysian and South Korean armies. Instead, the engines were
                diverted to the People’s Republic of China (PRC). The individual was
                arrested as he attempted to smuggle a military night vision system out of
                the United States aboard a commercial flight with an ultimate
                destination of the PRC. Another firm official, also a South Korean
                national, also was charged but currently is a fugitive from justice.

                In Texas, 41 undocumented workers employed by subcontractors of a
                Defense shipyard contractor were charged with false representation of
                Social Security numbers to obtain employment. Of the 41 charged, 19
                have been convicted, sentenced to 12 months probation and were
                ordered to be deported. In addition to fraudulent Social Security cards,
                some of the workers had fraudulent welders’ certificates. The
                subcontractors performed work on a multi-million dollar contract to
                modify a Defense floatable radar platform.

HUMAN CAPITAL   The challenge in the area of human capital is to ensure that the DoD
                civilian and military workforces are appropriately sized, well trained and
                motivated, held to high standards of integrity, and capable of functioning
                in an integrated work environment and handling the emerging
                technologies and threats of the 21st century. The DoD employs more
                than 3.28 million civilian and military personnel. The challenges of
                managing such a large workforce, including oversight of contractor
                personnel, highlight the need for the DoD to identify and maintain a
                balanced level of skills to sustain core defense capabilities and meet the
                increasing challenges and threats of the 21st century.

                The DoD is designing a new civilian human resources management
                system to better support its critical national security mission. The
                National Security Personnel System (NSPS) will change how the DoD
                hires, pays, promotes, disciplines, and removes its civilian workforce in
                order to more closely resemble personnel practices in the private sector.

                In recognition that human capital is a crucial area within DoD, in
                February 2005, the DoD OIG human capital audit team initiated a top
                down review of the Enterprise Management of DoD Human Capital.
                They also initiated a review of the Personnel Security Clearance process
                in March 2005. Additionally, to ensure coordination among the DoD
                audit community, the DoD OIG established the Human Capital Joint
                Audit Planning Group with the Service audit agencies.

                The DoD OIG provided comments that addressed our concerns
                regarding DoD OIG and auditor (GS-511) independence to the Under


                                     6
Semiannual Report for Transmission to Congress                                                             Chapter One




                             Secretaries of the Comptroller and Personnel and Readiness on
                             Department initiatives to improve the financial management workforce.
                             The initiatives include Draft DoD Policy, “Certification for DoD
                             Professional Accounting Positions” and the DoD Financial Management
                             Workforce Development Working Group. The DoD IG fully supports
                             efforts to improve the competency and career development of the
                             f i n a n c i a l m a n a g e m e n t w o r k f o r c e . H o w e v e r, t h e p r o p o s e d
                             implementation of the concepts would impinge on IG statutory authority
                             and impair the independence, in both fact and appearance, of
                             approximately 6,500 GS-511 DoD auditors as defined by the
                             Government Auditing Standards issued by the US Comptroller General.
                             In addition to DoD OIG and auditor independence issues, the proposals
                             did not take into consideration the fact that the large proportion of the
                             DoD audits are performance or operational audits rather than financial
                             audits. The DoD OIG and DoD audit community already support the
                             concepts and has active programs for maintaining its auditor
                             competency, including continuing professional education requirements.
                             The comments included a recommendation that the authority and
                             responsibility to implement the concepts be delegated to the DoD IG for
                             the GS-511 auditors in DoD.

                             In December 2004, the DoD OIG issued “Allegations of Sexual Assault,
                             Reprisal, and Related Leadership Challenges at the United States Air
                             Force Academy.” In response to a congressional request, the DoD OIG
                             conducted a thorough review of the accountability of Academy and Air
                             Force Headquarters leaders for the sexual assault problems at the Air
                             Force Academy over the last decade. The review established that the
                             failure of successive chains of command to acknowledge the severity of
                             the problems was a root cause. The Air Force Academy had created,
                             without approval of the Secretary of the Air Force, a unique sexual
                             assault policy, which differed from the rest of the Air Force. While the
                             policy did not cause the sexual assaults, it contributed to cultural
                             problems; masked the magnitude of problems from the visibility of Air
                             Force leaders; and prevented effective criminal investigations.

                             In March 2005, DoD OIG released the “Service Academy Sexual
                             Assault and Leadership Survey Report.” The survey, conducted in
                             March and April 2004, gathered information from cadets and
                             midshipmen on (1) their values; (2) their experiences with sexual
                             harassment and sexual assault while at their academy; (3) climate factors
                             at their academy that might cause or contribute to gender problems; (4)
                             the scope of recent sexual assault incidents at their academy; and (5)
                             factors that affect sexual assault reporting at their academy. Of the 5,013


                                                       7
Chapter One                              Semiannual Report for Transmission to Congress




              cadets and midshipmen surveyed, over 50 percent of the females and
              approximately 11 percent of the males indicated experiencing some type
              of sexual harassment since becoming a cadet or midshipman. A total of
              262 of the 1,906 female survey respondents indicated they had
              experienced 302 incidents of sexual assault behavior, while a total of 54
              of the 3,107 male survey respondents identified 55 sexual assault
              incidents. Of the incidents involving a female respondent, 64 incidents
              included sexual intercourse. The survey covered the years between 1999
              and 2004. Most incidents occurred in a dormitory; the offenders were
              primarily fellow cadets/midshipmen; and most incidents involved
              touching, stroking, or fondling private parts. Based on survey data, it
              appears that most females arrived at the academies perceiving that men
              and women are treated fairly overall. That perception continued through
              their senior year. Males also appear to arrive at the academies thinking
              that men and women are treated fairly overall, but after the first year,
              they think women are treated more favorably. There were some
              variations among the academies.

              Trafficking in persons (TIP) is a global problem that enslaves thousands
              of people. The Secretary of Defense’s TIP policy memo, September 16,
              2004, states “No leader in this Department should turn a blind eye to this
              issue.” TIP activities cannot be tolerated in military organizations,
              civilian contract organizations, or their subcontractors supporting DoD
              operations. In accordance with the National Security Presidential
              Directive 22, the DoD IG is assisting the Under Secretary of Defense for
              Personnel and Readiness to ensure that DoD personnel are trained and
              aware of TIP policies. Furthermore, as a continuing effort, Inspections
              and Evaluations teams will conduct TIP evaluation visits at DoD
              installations around the world to assess DoD’s efforts to combating TIP.

              Responding to a request from Senator Charles Schumer, the DoD OIG
              Inspections and Evaluations Directorate completed an evaluation of the
              DoD Chaplain Program in November 2004. The evaluation reviewed the
              military chaplain selection process, and the qualification criteria for
              religious organizations (ROs) and their endorsing agents (EAs). Overall,
              the evaluation concluded that the program was administered well and
              that DoD chaplains promote religious plurality among the Services and
              contribute to the readiness of our forces. To improve the program, the
              evaluation team recommended a more rigorous vetting procedure to
              qualify ROs and EAs.

              The DoD IG and the inspectors general of the military services are
              required to conduct an annual review of the effectiveness and


                                   8
Semiannual Report for Transmission to Congress                                             Chapter One




                             compliance of the Voting Assistance Program (VAP). The requirements
                             for this review are specified in Title XVI, Uniformed Services Voting,
                             Section 1566, Chapter 80 of Title 10, United States Code. To comply
                             with this statutory requirement, the Inspections and Evaluations
                             Directorate completed 12 unannounced installation visits, administered a
                             Web-based survey, and conducted interviews with program managers.
                             The final report was sent to Congress on March 31, 2005. The review
                             team concluded that the military services were compliant. However, the
                             report recommends that the overall effectiveness of the program can be
                             improved with a set of management metrics and exploitation of
                             information technologies and automated reporting procedures.

                             A DoD OIG audit report addressed Navy staffing levels and found that
                             at 4 of the 14 sites visited, senior enlisted manning levels were less than
                             100 percent when the unit deployed, which exposed personnel in those
                             units to a higher level of risk for mishap or injury.

                             The Naval Audit Service reported that Department of Navy (DoN) is
                             facing an impending wave of generational retirement. However, a
                             corporate-level DoN workforce-planning program, to include policy,
                             guidance, goals, objectives, or metrics, has yet to be established to guide
                             and to evaluate workforce planning. The 25 Navy and Marine Corps
                             claimants each developed their own approach to civilian workforce
                             planning in absence of policy and guidance. Years of constant
                             downsizing, combined with limited and inconsistent workforce planning
                             across claimants, have left the Navy and Marine Corps with an aging,
                             imbalanced workforce and with an increased risk of loss of experience
                             and key skills.

INFORMATION                  The DoD Components use information technology (IT) in a wide variety
TECHNOLOGY                   of mission functions including finance, personnel management,
MANAGEMENT                   computing and communication infrastructure, logistics, intelligence, and
                             command and control. The President's Management Agenda for
                             expanding electronic government has identified effective planning for IT
                             investments as a priority. Improving IT security as part of IT
                             management is one of the highest priorities of the Office of Management
                             and Budget (OMB). The DoD OIG plans to continuously audit and
                             monitor IT security within the DoD.

                             An October 5, 2004, DoD OIG assessment provided to OMB in response
                             to the requirements of the Federal Information Security Management
                             Act concluded that DoD does not currently have a comprehensive,
                             enterprise-wide inventory of major information systems. As has been


                                                  9
Chapter One                             Semiannual Report for Transmission to Congress




              reported in numerous DoD OIG and Government Accountability Office
              reports, issuances, and testimonies since at least 1997, the DoD cannot
              accurately respond to congressional and OMB data calls regarding the
              status of its IT enterprise, to include the security of that enterprise,
              without this basic tool.

              A DoD OIG audit found that DoD has not established a Plan of Action
              and Milestones Process that complies with OMB guidance for correcting
              IT security weaknesses. As a result, DoD funded approximately $2
              billion for IT security in FY 2003 without assurance that DoD is making
              significant progress to overcome security weaknesses in its IT systems.

              An Army Audit Agency report stated that the Army has made progress
              in its efforts to consolidate servers, but more needs to be done to
              complete the initiative. Installations were using various methods to
              implement the program, which produced mixed results. Overall
              guidance was distributed to all Department of the Army Headquarters
              (HQDA) functional proponents, major commands (MACOMs), and
              Installation Directors of Information Management that established a
              goal, an initial milestone, and a database to report server consolidation
              progress. However, the Army needs to redefine the guidance,
              implementation process, and procedures for server consolidation.

              A Naval Audit Service audit concluded that the Navy's information
              assurance vulnerability management process was not effective to ensure
              that system vulnerabilities were eliminated from Centrally Managed
              Programs (CMPs) as required by laws and regulations. The audit
              determined that CMPs were not registered primarily because of unclear
              definitions for a CMP and the low registration was attributed to weak,
              missing, or incomplete Information Assurance Vulnerability Alert
              management controls.

              The Air Force Audit Agency reported that planned purchases of Secure
              Terminal Equipment (STE) exceeded requirements by at least
              $19.5 million. Although on-hand STE quantities exceeded requirements,
              unit personnel had not accurately accounted for STE items. Further,
              procedures needed improvement for procuring, handling, controlling,
              and protecting STE and the associated cryptographic card (KOV-14). As
              a result, the Air Force could have avoided $3.5 million in future STE
              purchases by redistributing excess STE to units with shortages.
              Management’s corrective action after the audit resulted in a $44.6
              million programming reduction.




                                  10
Semiannual Report for Transmission to Congress                                                Chapter One




                             DCIO agents regularly coordinate with other national intelligence and
                             law enforcement representatives through participation in various task
                             forces and groups. DCIO agents participate in the Law Enforcement and
                             Counterintelligence Center at the Joint Task Force, Global Network
                             Operations. The AFOSI serves as executive agent for the Defense Cyber
                             Crime Center (DC3), which consists of the Defense Computer Forensics
                             Laboratory (DCFL), Defense Computer Investigations Training
                             Program (DCITP), and Defense Cyber Crime Institute (DCCI). The
                             DCFL provides counterintelligence, criminal and fraud computer-
                             evidence processing, analysis, and diagnosis for DoD investigations.
                             Through its DCITP, DC3 provides training in computer investigations
                             and computer forensics to DoD investigators. The DCCI completes the
                             computer crimes support effort by meeting the research, development,
                             testing, and evaluation needs of the DCIOs.

                             Examples of information technology criminal investigative cases follow:

                                   •   As a result of a plea agreement, an enlisted military member was
                                       convicted, sentenced to 15 months confinement (of which 9 will
                                       be served), reduced in grade, and received a dishonorable
                                       discharge. An investigation found that the military member stored
                                       child pornography on two computers of the White House
                                       Communication Agency, where he worked.

                                   •   A non-Defense civilian was convicted, sentenced to 1 year home
                                       detention and 3 years probation, and ordered to pay $135,548 in
                                       restitution after entering into a plea agreement in lieu of trial on
                                       charges of unauthorized access to a computer and access device
                                       fraud. A joint investigation found that the individual gained
                                       unauthorized access to multiple U.S. Government and
                                       commercial computers, made changes to some websites, and used
                                       the Internet to traffic in stolen credit cards.

                                   •   In Maryland, an enlisted military member was convicted,
                                       sentenced to 57 months in prison followed by 3 years of
                                       supervised release after entering a plea agreement in lieu of being
                                       tried on charges of interstate transportation and shipment of child
                                       pornography by computer. A joint investigation found that the
                                       member posted images of child pornography on the Internet.




                                                  11
Chapter One                                Semiannual Report for Transmission to Congress




   ACQUISITION     The Department of Defense is the world’s largest purchaser of goods and
   PROCESSES AND   services. In FY 2004 alone, DoD spent $254 billion on acquisition. On an
   CONTRACT        average working day, DoD issues more than 25,000 contract actions,
   MANAGEMENT      valued at $923 million, and makes more than 195,000 credit card
                   transactions, valued at $43.9 million. There are about 1,500 weapon
                   acquisition programs valued at $2.1 trillion over the collective lives of
                   these programs. Every acquisition dollar that is not prudently managed
                   results in that dollar not being available to fund the Secretary of
                   Defense’s top priorities, such as the global war on terrorism and joint
                   warfighting capabilities.

                   The investigations into violations of the Procurement Integrity Act by
                   DoD and contractor personnel and their impact on acquisition programs
                   highlight the need for continued training for acquisition professionals. As
                   a result of the fraudulent actions taken by senior DoD officials, the DoD
                   OIG continues to conduct investigations and audits of numerous DoD
                   acquisition programs. The adverse actions of a few people can cause
                   delay for major acquisition programs, impede quick delivery of new
                   capabilities to the warfighter, and negatively affect public perception of
                   the integrity of the acquisition process.

                   To improve the acquisition of weapon system programs, the DoD audit
                   community continues to identify ways in which the DoD could improve:

                        •   Evaluations of contractor proposals, to include appropriately
                            considering past performance (DoD OIG audit of F-15 trainer
                            support contract);

                        •   Controls over program life-cycle costs (DoD OIG audit of Pueblo
                            Chemical-Agent-Destruction Pilot Plant Project, where estimated
                            program life-cycle costs escalated from $1.5 to $2.65 billion); and

                        •   Implementation of DoD interoperability and information assurance
                            policies (DoD OIG audits of Air Force and Navy acquisition
                            programs);

                   The DoD auditing community has significantly contributed to the DoD’s
                   aggressive pursuit of savings through use of credit cards and reduced
                   vulnerability to misuse. Efforts of the DoD OIG data mining group and
                   purchase card program office of DoD have increased senior leadership
                   involvement and improved management controls over the purchase card
                   program. This is not just a domestic issue as overseas purchase card
                   transactions are a significant part of the program. During the 6-month


                                    12
Semiannual Report for Transmission to Congress                                            Chapter One




                             period ending March 31, 2003, DoD cardholders located outside of the
                             United States made about 525,000 transactions totaling about
                             $350 million. A DoD OIG audit showed that DoD Dependents Schools-
                             Europe did not implement effective controls over the purchase card
                             program before, during, or after purchase for 411 transactions on 22
                             accounts, valued at $2.1 million.

                             An Army Audit Agency report stated that the Army had no assurance
                             that contractor performance was meeting expectations for the Logistics
                             Civil Augmentation Program (LOGCAP) in Kuwait because
                             performance-based contract procedures were not followed, recurring
                             reports and support plans from the contractor sometimes were not
                             prepared, contract administrative authority was not promptly delegated
                             to the Defense Contract Management Agency, and standing operating
                             procedures for the LOGCAP Support Unit were not developed.
                             Additionally, the Army did not adequately account for more than
                             $77 million worth of government-furnished property the contractor used
                             to support contract task orders for LOGCAP in Southwest Asia, cost
                             estimates for the task order statements of work reviewed were overstated
                             by at least $40 million, and the contractor incurred about $1.7 million in
                             value added taxes that did not apply to the Army.

                             A Naval Audit Service report evaluated the procurement planning and
                             requirements verification process for acquiring Department of the Navy
                             (DON) support equipment. The audit found that the Support Equipment
                             Management System used in the DON Aviation Common Support
                             Equipment procurement planning and verification process did not
                             always provide a reliable basis for budgeting requirements, which may
                             increase the risks of budgeting for quantities other than the approved
                             support equipment requirement. In addition, the internal controls over
                             the Support Equipment Requirements Verification Process at the Naval
                             Air Systems Command (NAVAIR) needed strengthening.

                             An Air Force Audit Agency report of the F/A-22 Producibility
                             Improvement Program (PIP) concluded that F/A-22 program officials
                             had adequate visibility and control over PIP initiatives and F/A-22
                             contractors applied PIP investments to reduce manufacturing labor
                             hours, improve process efficiencies, reduce scrap and rework, and
                             enhance competition at the supplier level. However, auditors found that
                             F/A-22 program officials did not readily track projected PIP savings in
                             contractor cost proposals for yearly lot buys to ascertain whether the
                             Air Force was fully realizing estimated returns on PIP investments.
                             Additionally, program officials did not always use consistent F/A-22


                                                 13
Chapter One                           Semiannual Report for Transmission to Congress




              aircraft quantities when calculating projected savings for PIP candidates
              or account for funds received from non-F/A-22 program sources but used
              specifically for F/A-22 PIP initiatives.

              An Air Force Audit Agency report discussing Performance-Based
              Services Acquisition Management stated that Air Force functional and
              contracting personnel did not consistently use results-based requirements
              to ensure that contracts were performance-based. As a result, 12 of 16
              locations did not meet the intent of governing legislation and contracting
              policies regarding use of results-based requirements to ensure that
              contractors had the flexibility to compete for contracts based on their
              ability to deliver innovative services solutions. In addition, Air Force
              service contract reporting was not accurate or complete regarding the
              implementation of performance-based services acquisition and service
              contract spending, which distorted the extent of progress toward
              achieving DoD performance-based contracting goals.

              DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,”
              as amended August 16, 1995, prescribes DoD policies and procedures,
              including the requirement that reports be resolved within 6 months of
              issuance and closed within 12 months. At the end of this semiannual
              reporting period, 329 reports with costs questioned of $975 million
              exceed the 6 month requirement for resolution and 214 reports with costs
              questioned of $416 million exceeded the 12 month requirement and were
              not closed. However, this does not include the Army’s data because they
              were unable to submit their data by the date required for inclusion in the
              semiannual report. DoD OIG Audit Policy and Oversight issued a report
              on the Defense Contract Management Agency (DCMA) Santa Ana Office
              actions to resolve and close Defense Contract Audit Agency audit reports
              on incurred cost that showed over $100,000 in costs questioned (Report
              No. D-2005-003). Administrative contracting officers at DCMA Santa
              Ana needed to resolve and close the audit reports in a timely manner,
              address and collect penalties and interest on expressly unallowable costs,
              ensure accurate amounts are reported to DCMA headquarters, and include
              contract audit follow-up in performance standards and rating evaluations.
              Management agreed to implement the report recommendations.

              Recently, the AFOSI renewed its focus on economic crime through a
              base-level fraud campaign. Over the past few years, world events have
              shaped operations tempo like no other time in history. Force protection
              and counterintelligence matters have come to the forefront as increased
              risks to Air Force assets and personnel have driven a greater need for
              these types of services. However, well-publicized corporate scandals and



                                14
Semiannual Report for Transmission to Congress                                               Chapter One




                             public corruption cases have demonstrated that economic crime is still a
                             threat. A headquarters fraud element, comprised of acquisition advisors,
                             agents and analysts are assisting in target identification, as well as
                             delivering “hands-on” fraud expertise and case support.

FINANCIAL                    The DoD’s financial statements are the largest, most complex, and most
MANAGEMENT                   diverse financial statements in the world. The DoD faces financial
                             management problems that are complex, long-standing, pervasive, and
                             deeply rooted in virtually all business operations throughout the DoD.
                             These problems have hindered the ability to provide reliable, timely, and
                             useful financial and managerial data to support operating, budgeting,
                             and policy decisions. Because of these problems, the Department has
                             received a disclaimer of an audit opinion on all but two of its major
                             financial statements. To date, only the Military Retirement Fund has
                             received an unqualified opinion, while the Medicare Eligible Retiree
                             Health Care Fund received a qualified opinion for FY 2004.

                             The DoD also has numerous smaller entities such as the DoD OIG which
                             are also attempting to obtain opinions. Although not required as part of
                             the DoD Agency-Wide Financial Statements, the DoD OIG has taken
                             steps to ensure its own financial statements are in order and provide a
                             transparent accounting of receipts and expenditures for the agency. An
                             independent accounting firm reviewed the DoD OIG financial
                             statements for FY 2004. The independent auditors gave an unqualified
                             opinion to the DoD OIG financial statements, finding that the financial
                             statements “present fairly, in all material respects, the financial position,
                             net cost, changes in net position, budgetary resources, and financing of
                             the OIG.” Figure 1 (the following page) summarizes the DoD OIG FY
                             2004 financial position.

                             The DoD OIG is working closely with the DoD to address long-standing
                             financial management problems and supports the DoD’s goal of
                             achieving a favorable audit opinion for the DoD Agency-Wide financial
                             statements. The Under Secretary of Defense (Comptroller)/Chief
                             Financial Officer has directed an initiative to improve financial
                             management in the DoD with the stated objective of achieving an
                             unqualified audit opinion on the DoD’s financial statements. Also, the
                             DoD OIG continues to support congressional audit requirements for
                             three DoD intelligence agencies and audits of Defense agencies that will
                             help to render a favorable audit opinion on the DoD Agency-Wide
                             financial statements. To accomplish this enormous task, the DoD OIG
                             hired about 100 additional audit personnel during FY 2004 and plans to
                             hire approximately 100 auditors during FY 2005.


                                                  15
 Chapter One                                                                           Semiannual Report for Transmission to Congress

                                      DOD OIG FY 2004 FINANCIAL POSITION
                                           Performance Period Ending September 30, 2004


        Revenue                                                                Revenue
                                                                                   DIRECT                              $169,086,000
                                          Reprogramming DFS
                                                audits                                 O&M APPN                          160,449,000
                 DRUG I’DTN                     3.14%
                   0.03%
                                                                                       R&D APPN                             300,000
                                                         GWOT SUPPL
    REIM PRGM                                              0.49%                       PROC APPN                           1,700,000
       6.5%
                                                                                       Reprogramming for DFS Audits        5,680,000
FY04 PROC                                                                              Drug Interdiction                      57,000
  0.94%
                                                                                       GWOT Supplemental                    900,000

      FY04 R&D                            FY04 O&M
                                                                                   REIMBURSABLE                         $11,747,126
        0.17%                              88.73%
                                                                                       DFS Audit Contracts                 9,225,392
                                                                                       CPA IG Support                      2,504,617
                                                                                       Miscellaneous                          17,117
                                                                               Total Revenue                           $180,833,126


       Direct Expenses                                                         Direct Expenses
                                                                                       Pay & Compensation               $128,238,271
                         Other Services
                            3.16%
                                            Supplies                                   Travel                              5,378,239
                                             1.36%
                     ISA’s 1.52%                Equipment 3.51%                        Perm. Change of Station (PCS)       1,295,127
             Training 0.73%                                                            Shipping Costs                        30,000
                                                       Shipping Costs
       Printing 0.05%                                      0.02%
                                                                                       Rents/Communications/Util.         16,226,338
   Rents/Commun./Util.                                                                 Printing                              80,104
          9.62%
 PCS 0.77%                                                                             Training                            1,237,781

            Travel
                                                                                       Interservice Support (ISAs)         2,568,697
            3.19%
                                                                                       Other Services                      5,330,880
                                          Pay & Comp
                                            76.07%                                     Supplies                            2,286,569
                                                                                       Equipment                           5,920,233

                                                                                   Total Direct Expenses               $168,595,239
                                                                               Reimbursable Expenses                    $11,747,126
                                                                               Excess of Revenues Over Expenses           $190,761
                                                                               Carryover to FY 2005                       $300,000

                                                                               Total                                   $180,833,126
                                                                        Figure 1

                                                                          16
Semiannual Report for Transmission to Congress                                               Chapter One




                             The DoD OIG awarded contracts during FY 2004 to audit six DoD
                             financial management systems. Each of these audits will determine the
                             accuracy and reliability of the data, whether general and application
                             controls are adequately designed and effectively operating, whether the
                             system complies with the Federal Financial Management Improvement
                             Act requirements and all other applicable laws and regulations, and
                             whether the system is properly certified and accredited in accordance
                             with the DoD Information Technology Security Certification and
                             Accreditation Process.

                             The DoD OIG established a Multiple Award, Indefinite Quantity,
                             Indefinite Delivery contract during FY 2005 that will allow the
                             DoD OIG to issue contracts to independent public accounting firms and
                             information technology firms for financial audit work as management
                             asserts that its systems and financial data are reliable and ready for audit.
                             However, in compliance with Section 352 of the FY 2005 National
                             Defense Authorization Act (Public Law 108-375, 10/29/04), the OIG
                             will limit the award of task orders under this contract until the Secretary
                             of Defense submits a required report to Congress.

                             The DoD OIG issued the opinion report and internal control and
                             compliance report for the FY 2004 DoD Agency-Wide financial
                             statements within the accelerated reporting due dates established by
                             Office of Management and Budget (OMB). The OMB accelerated the
                             reporting date from January 30th for the FY 2003 financial reporting
                             period to November 15th for FY 2004. Also, on November 18, 2004, the
                             DoD OIG issued a report on the FY 2004 DoD Agency-Wide Special-
                             Purpose financial statements. This report was a new requirement for the
                             FY 2004 financial reporting period required by the Department of the
                             Treasury.

                             In addition, the DoD OIG issued an audit report on the timeliness of the
                             Department’s violation reporting and the appropriateness of the
                             discipline administered for Antideficiency Act (ADA) violations. The
                             report found that military departments and the Office of the Under
                             Secretary of Defense (Comptroller)/Chief Financial Officer did not
                             process ADA cases within 12 months of discovery as required by DoD
                             regulations and did not always render appropriate disciplinary actions.
                             The Department, on average, took 49 months for the Army, 43 months
                             for the Navy, and 63 months for the Air Force to conduct the ADA
                             investigations and report the violations to the President and Congress.
                             Additionally, the Navy did not administer formal, written disciplinary
                             actions in most cases.


                                                  17
Chapter One                                         Semiannual Report for Transmission to Congress




                         Another DoD OIG audit report showed that the Defense Finance and
                         Accounting Service improperly paid military retirement benefits of
                         about $4.8 million per month to the accounts of as many as
                         3,100 deceased retirees. Accounts that should have been closed
                         remained suspended, which incurred unnecessary maintenance fees.

 Significant Financial   The DoD loses millions of dollars annually because of financial crime,
 Crimes                  public corruption, and major thefts. Through the investigative efforts of
                         DCIO agents, abuses in the procurement process, such as the
                         substitution of inferior products, overcharges, bribes, kickbacks, and
                         cost mischarging are exposed. Additionally, the DCIOs have partnered
                         with acquisition and financial agencies to proactively identify areas of
                         vulnerability.

                         Some investigative cases related to financial management follow.

                         During this period, a former Principal Deputy Assistant Secretary of the
                         Air Force for Acquisition and Management and the Chief Financial
                         Officer (CFO) of a major Defense contractor were sentenced to prison
                         terms and were ordered to pay fines after entering guilty pleas. The
                         former Air Force executive was sentenced to 9 months in prison, 7
                         months of community confinement, 3 years supervised release, and 150
                         hours of community service and was ordered to a pay a $5,000 fine, after
                         pleading guilty to conflict of interest charges. The contractor CFO was
                         ordered to serve 4 months in jail, perform 200 hours of community
                         service, and pay a $250,000 fine after pleading guilty to charges of
                         aiding and abetting acts affecting a personal financial interest. An
                         investigation found the Air Force executive was in negotiation for
                         prospective employment with the major contractor while she was
                         participating as a government employee overseeing the negotiation of a
                         lease for Defense tanker aircraft. The Air Force executive notified the
                         contractor that she had not disqualified herself from negotiation matters,
                         but the contractor CFO elected to continue employment negotiations in
                         violation of conflict of interest statutes.

                         A major Defense contractor agreed to pay the U.S. Government $62
                         million as a result of a civil settlement to resolve charges of submitting
                         false claims. Based on information from former employees, an
                         investigation found that the contractor fraudulently accounted for
                         materials purportedly used in multiple Defense contracts, inflated the
                         costs, and misrepresented the progress of a radar jamming device for
                         Military bombers.




                                             18
Semiannual Report for Transmission to Congress                                              Chapter One




                             A major Defense contractor, involved in Foreign Military Sales
                             contracts, was ordered to pay a $13 million criminal fine and a $1,200
                             special assessment fee; serve a 3-year corporate probation; and
                             implement a Foreign Corrupt Practices Act program. Additionally, the
                             company agreed to pay $15.5 million in disgorgement and prejudgment
                             interest as a result of a civil settlement to resolve allegations of bribing
                             foreign government officials. During a two-year investigation, criminal
                             investigators discovered that the company paid more than $3.5 million to
                             its agent in Benin, Africa, who was known by the company to be the
                             business advisor to the President of Benin. Additionally, the
                             investigation showed that the company funneled approximately $2
                             million towards the election campaign of Benin’s then-incumbent
                             President. A former company senior official directed the agent to falsely
                             bill the payments as “consulting services.” The company then falsified
                             documents presented to the U.S. Government by under-reporting
                             payments on equipment exported to other countries.

                             A Virginia –based Defense contractor entered into a civil settlement
                             agreeing to pay $1.7 million in lieu of being charged with false claims
                             for incorporating a banned substance into the production of military
                             supplies. The corporation also agreed to implement a compliance
                             program to ensure that material produced for the DoD is in compliance
                             with contract specifications. The corporation used lead chromate to
                             formulate military green and desert tan colors in a variety of military
                             products including tents, tarps, and vehicle equipment covers. Lead
                             chromate is a known toxic substance that may cause significant health
                             problems to include allergic reactions, cancer, and other irritations.
                             Actions taken against corporation officials were reported in the last
                             semi-annual report.

                             As a result of an international joint criminal investigation, two
                             companies were ordered to pay fines of $4.6 million each and jointly
                             reimburse the U.S. Government $865,000 after pleading guilty to bid
                             rigging. The companies contracted with the DoD to move Service
                             members’ household goods.

                             An investigation, based on a qui tam complaint, found that a Texas
                             company that manufactures, refurbishes, and tests high-pressure
                             compressed gas cylinders and tube trailers was instructing employees to
                             falsify test data. The company agreed to pay a civil settlement of $2.9
                             million to resolve allegations of false claims.




                                                  19
Chapter One                              Semiannual Report for Transmission to Congress




              A California Defense contractor agreed to pay $800,000 in criminal and
              civil fines after pleading guilty to charges of making false statements on
              behalf of one of its subcontractors. A joint investigation disclosed that
              the companies had implemented unauthorized heat-treating practices,
              altered heat-treating records, failed to test 100 percent of the parts as
              required by contracts, and falsified machine calibrations. The
              companies, which were suspended from Government contracting,
              produced and heat-treated Military aircraft parts.

              A joint investigation found that two Defense subcontractor employees
              paid kickbacks to a buyer for a major Defense contractor in exchange for
              receiving Defense subcontracts. The buyer was sentenced to 1 year
              confinement and 3 years probation, and ordered to pay $82,354 in
              restitution and a special assessment after pleading guilty to wire fraud
              and conspiracy. One subcontractor employee was sentenced to 3 years
              probation and ordered to pay a $500 criminal fine and a special
              assessment after pleading guilty to conspiracy to defraud the
              Government and providing a kickback. The second subcontractor pled
              guilty to wire fraud and conspiracy and was sentenced to 2 years in
              prison and 3 years probation, and ordered to pay $49,412 in restitution
              and a criminal fine of $15,000. Additionally, he agreed to pay $110,000
              to the U.S. Treasury.

              As a result of an investigation based on information from a former
              employee, a Defense contractor and its former owner agreed to a
              $283,000 civil settlement to resolve allegations of product substitution.
              An investigation found that the company was shipping defective sealed
              carbon dioxide cylinders that are used in military inflatable life vests.
              The cylinders, identified by DoD as a safety and survival item, are a
              critical application item and could result in a malfunction of the life
              vests.

              As part of the DoD’s continuing effort to let Defense contractors
              voluntarily disclose improprieties in their programs, the DoD Voluntary
              Disclosure Program received 4 requests for admission during this period
              and recovered $35,000 in settlement of disclosures. Five voluntary
              disclosures were closed and one request for admission was denied. Since
              its inception in 1986, the program has recovered more than $428.4
              million for the U.S. Government.




                                  20
Semiannual Report for Transmission to Congress                                            Chapter One




HEALTH CARE                  The DoD challenge in its military health system is to provide high
                             quality health care, within fiscal constraints, in both peacetime and
                             wartime for approximately 9.1 million eligible beneficiaries. This
                             challenge is especially daunting because of the difficulty in controlling
                             costs in both the public and private sectors. The DoD challenge is
                             magnified because the military health system must also provide health
                             support for the full range of military operations. The system was funded
                             for a total amount of $31 billion in fiscal year 2005, which included
                             $18.2 billion in the Defense Health Program appropriation, $7.3 billion
                             in the Military Departments’ military personnel appropriation,
                             $0.2 billion for military construction, and $5.3 billion from the DoD
                             Medicare-Eligible Retiree Health Care Fund. This fund covers the costs
                             of health care for Medicare eligible retirees, retiree family members, and
                             survivors.

                             An Air Force Audit Agency report stated the Air Force could improve
                             pharmaceutical cost-reduction efforts. Pharmacy management did not
                             obtain the most cost-effective pharmaceuticals because approximately
                             36 percent of purchases were non-contract, brand-named, or higher-
                             priced equivalent pharmaceuticals. As a result, Air Force management
                             spent nearly $8 million more than necessary for the purchases.
                             Strengthening cost-reduction efforts would reduce pharmaceutical
                             expenditures by $60 million over the 6-year Future Years Defense
                             Program. In addition, pharmacy and medical logistics officials did not
                             obtain manufacturer backorder credits totaling nearly $1 million for non-
                             contract pharmaceutical purchases. Obtaining backorder credits would
                             provide Air Force pharmacies an estimated $10.5 million over the 6-year
                             Future Years Defense Program.

                             An Air Force Audit Agency review concluded that Air Force medical
                             officer recruiting and retention were not entirely effective. Air Force
                             Recruiting Service accessions fell short of the Medical Service
                             recruiting requirement in Fiscal Years 2001 through 2003 by 26, 38, and
                             36 percent, respectively. In addition, a medical personnel survey
                             revealed that 24 percent of respondents indicated intentions of leaving
                             the Air Force, 52 percent of respondents currently receiving a retention
                             bonus perceived the bonus amount as insufficient, and non-monetary
                             factors strongly influenced the decision to stay or leave the Air Force.

                             To ensure that DoD health care funding is utilized in a proper and
                             efficient manner toward providing quality patient care to TRICARE
                             beneficiaries, the DCIS has aggressively pursued health care
                             investigations involving “harm to patient,” corruption, kickbacks, and


                                                 21
Chapter One                               Semiannual Report for Transmission to Congress




              allegations with significant TRICARE impact. DCIS continues to serve
              as an active participant in local health care fraud task forces and the
              National Health Care Anti-Fraud Association.

              A TRICARE contractor agreed to pay $400,000 to the U.S. Government
              and its medical director agreed to a 5-year voluntary exclusion from
              TRICARE as part of a non-prosecutive agreement with the U.S.
              Attorney’s Office to resolve allegations of health care fraud and
              submitting of false claims relating to health care. An investigation found
              that the contractor, a chain of health care clinics, had filed claims stating
              that the medical director had performed nearly all its health care
              services, when in fact, nurse practitioners provided the vast majority of
              the services. Thus, the contractor was reimbursed by TRICARE at a
              higher rate than was warranted.

              A major rehabilitative medicine services contractor agreed to pay the
              Government $325 million as part of a civil settlement to resolve
              allegations involving health care fraud. A joint investigation, based on
              information filed in a qui tam lawsuit found that the company submitted
              fraudulent cost reports that included exaggerated and unallowable
              expenses to TRICARE and other Government entities for payment.

LOGISTICS     Logistics must reliably provide the warfighter with the required materiel
              when needed to support continuous combat effectiveness of the
              deployed force. DoD logistics support operations for supplies,
              transportation, and maintenance cost more than $90 billion annually. It
              is a function that involves nearly 700,000 active duty and reserve
              military personnel and civilian personnel, as well as several thousand
              private-sector firms. Supported weapon systems include more than
              300 ships, 15,000 aircraft and helicopters, 330,000 ground combat and
              tactical vehicles, and hundreds of thousands of additional mission
              support assets. In addition, DoD maintains a varied inventory of items
              such as clothing, engines and repair parts, all to support the warfighter.

              DoD OIG logistics audits completed during the period are typical of the
              broad range of audits recommending improvements to logistics
              operations. One DoD OIG report addressed the Defense Logistics
              Agency’s processing of Special Program Requirements and determined
              that over a 6-year period (FYs 2005 through 2010), funds totaling
              $95.6 million could be put to better use if the pilot program implemented
              to minimize inventory to support special program requirements was
              expanded to include DLA supply centers at Columbus, Ohio, and




                                   22
Semiannual Report for Transmission to Congress                                              Chapter One




                             Richmond, Virginia. The DLA expanded the program, but nonconcurred
                             with the estimated monetary benefits.

                             Another DoD OIG report addressing performance-based logistics (PBL)
                             for the Javelin weapon system determined that the PBL strategy was not
                             fully implemented as described in the Army’s PBL implementation
                             schedule. The report also stated that the decision to award the life-cycle
                             contractor support contract was based on an economic analysis that was
                             unsupported and incomplete. The Army is taking action to develop a
                             policy on performance-based agreements. In addition, when program
                             requirements require a change, the Army will reevaluate incentives and
                             penalties in the life-cycle contractor support contract. The economic
                             analysis will be updated to a business case analysis when contract
                             situations require. Further, upon receipt of the business case analysis, the
                             Army will fully validate the business case analysis for the weapon
                             system and will formally document the results and conclusion of the
                             validation.

                             The Air Force Audit Agency issued a report discussing Depot Field
                             Team Operations that concluded Air Force Materiel Command
                             personnel did not coordinate the selection of contract field team delivery
                             order contractors with the appropriate senior personnel, obtain approval
                             before initiating contract field team contract actions, properly administer
                             quality assurance for contract field team delivery orders, and deobligate
                             $27.3 million of funds after the contract field team delivery orders were
                             complete. As a result, an increased risk existed for faulty source
                             selection, higher maintenance costs, undetected contract performance
                             problems, and funds lost through unliquidated obligations. In addition,
                             contracting officers did not sufficiently evaluate or document the
                             rationale for selecting time-and-material delivery orders. As a result, 34
                             of the 70 Fiscal Years 2002 and 2003 orders were for repetitive tasks
                             with historical data that the contracting officers could have used to
                             support issuing firm-fixed-price delivery orders. Thus, $104 million in
                             Air Force contracting funds were committed against time-and-material
                             contracts without reasonable assurance that all pertinent facts were
                             analyzed and considered.

                             An Air Force Audit Agency report found that Air Force personnel did
                             not adequately manage wholesale spare parts pricing to ensure accurate
                             billing and financial recording. A review of transactions revealed that
                             Air Force logistics personnel did not adequately review and document
                             price changes, use correct prices to calculate financial transactions, or
                             maintain effective controls to prevent or detect invalid prices. As a


                                                  23
Chapter One                                  Semiannual Report for Transmission to Congress




                  result, logistics personnel misstated prices by $31.1 million causing
                  inaccurate billing and improper reporting of sales and inventory. Also,
                  of the more than 46,000 transactions reviewed, 5 percent did not use
                  correct prices to calculate financial transactions. These incorrect prices
                  caused $1.2 billion in incorrect inventory valuation.

INFRASTRUCTURE    The challenge in managing about 4,700 military installations and other
AND ENVIRONMENT   DoD sites is to provide modern, habitable, and well-maintained
                  facilities, which cover a wide spectrum from test ranges to housing.
                  Review of defense and security needs resulted in transformation of a
                  force structure that must be accompanied by a new base structure. There
                  is an obsolescence crisis in the facilities area itself and environmental
                  requirements are continually growing. Furthermore, the Department
                  maintains more facility infrastructure than needed to support its forces;
                  an estimated 25 percent more base capacity. Maintaining those facilities
                  diverts scarce resources from critical areas. However, the Department
                  has been making progress in defining all of the infrastructure problems
                  by working toward recommendations for realignment and closure in the
                  Base Realignment and Closure (BRAC) 2005 process. The oversight and
                  breadth of BRAC 2005 far exceeds prior BRAC efforts in 1989, 1991,
                  1993, and 1995.

                  Transformation through BRAC poses a significant challenge and
                  opportunity for DoD. BRAC 2005 should eliminate excess physical
                  capacity and transform the infrastructure in such a way that provides
                  opportunities for more efficient joint activity. As part of the challenge,
                  DoD must meet the timelines established in law and use certified data
                  that are accurate and complete to develop the recommendations.

                  Relating to BRAC 2005, the DoD OIG is in the process of validating the
                  internal controls and accuracy of the certified data to ensure a fair and
                  accurate process that will withstand scrutiny by the Government
                  Accountability Office, the Base Realignment and Closure Commission,
                  and the public. The DoD OIG is reporting to DoD Components on the
                  quality of their BRAC management controls, data, and processes and has
                  issued more than 270 memorandums reporting these results. BRAC has
                  been the DoD OIG’s largest effort this year, engaging 300 staff.

                  The Army Audit Agency review of the Army Environmental Database –
                  Restoration Requirements showed that the original Army Environmental
                  Database included the majority of applicable financial functional
                  requirements, as required by the Federal Financial Management
                  Improvement Act. The two requirements not included in the original


                                      24
Semiannual Report for Transmission to Congress                                            Chapter One




                             design were scheduled to be included in the next system upgrade.
                             However, the audit identified an internal control issue concerning the
                             overall reporting of environmental liabilities because the database did
                             not interface with any financial system. The Army Audit Agency review
                             of Environmental and Explosive Safety Requirements for Weapons
                             Systems showed that only one of the five systems reviewed had
                             effectively integrated environmental management into the system
                             development process.

                             A Naval Audit Service review of Hazardous Material Inventory
                             Requirements Determination and Offloads on Aircraft Carriers and
                             Amphibious Ships looked at the inventory levels of hazardous materials
                             on aircraft carriers and amphibious ships. Results of the audit showed
                             that controls relating to inventory requirements and offloads were not
                             effective, and the inventory of hazardous materials exceeded
                             requisitioning objectives.

                             An Air Force Audit Agency report on Air Force Center for
                             Environmental Excellence (AFCEE) testing laboratory contracts found
                             that for 96 percent of samples evaluated, AFCEE laboratory contractors
                             provided the required quality, quantity, and timeliness of site-project
                             laboratory services as specified in the AFCEE Quality Assurance Project
                             Plan. In addition, AFCEE project managers properly approved payments
                             for valid testing laboratory services delivered. As a result, AFCEE
                             management can rely on laboratory test results to meet Environmental
                             Protection Agency and installation environmental compliance
                             requirements.

                             DoD’s highest environmental costs are associated with installation
                             restoration (clean-up) practices at active installations and clean-up
                             activities at closing installations. The Defense Global Posture Initiative
                             and the Base Realignment and Closure process will identify potential
                             environmental liabilities both in the United States and overseas. To
                             improve DoD’s management of these important considerations and to
                             insure the right procedures and processes are established, the Assistant
                             Deputy Under Secretary of Defense for Environment, Safety, and
                             Occupational Health, requested, in February 2005, the IG’s assistance to
                             conduct a series of evaluations of the overseas environmental program.
                             Therefore, the Inspections and Evaluations Directorate has developed
                             plans to review the impact of overseas environmental documentation
                             and remediation policy for potential land transfers. An additional
                             objective is to conduct a follow-up review to determine the impact of




                                                 25
Chapter One                                    Semiannual Report for Transmission to Congress




                     previous Inspector General findings and observations on the
                     environmental program in Korea.

                     Executive Order 13148 directs that by December 31, 2005, each agency
                     shall implement an environmental management system at all appropriate
                     agency facilities based upon facility size, complexity, and the
                     environmental aspects of facility operations. Environmental
                     management systems protect the environment while ensuring ranges are
                     available for future testing and training. Today, the Department of
                     Defense faces significant challenges to conduct the realistic training
                     necessary to produce combat-ready forces. Hence, the DoD IG is
                     carefully assessing the balance between military requirements and the
                     public’s concern for the environment. Because the nation is at war, DoD
                     has increased training and expanded land and air space requirements.
                     The operations tempo correspondingly increases the stress on the testing
                     and training range infrastructure. The Inspections and Evaluations
                     Directorate is exploring how best to achieve mission success while
                     minimizing the impact on the environment.

 OTHER SIGNIFICANT   The DoD OIG issued a report discussing the effectiveness of the DoD
 ACTIVITIES          review process for export license applications and the timeliness of
                     updates to Federal export regulations. The report found that DoD had an
                     effective process to review export license applications for chemical and
                     biological items. The DoD management controls over the licensing
                     process were adequate. The report identifies biological agents and toxins
                     that are listed on the Department of Agriculture and Department of
                     Health and Human Services (HHS) lists of items of concern that are not
                     on the Commerce Control List. The Department of Commerce is
                     currently considering whether the items on the Agriculture and HHS
                     lists should be export controlled. The DoD should assist the Department
                     of Commerce in periodically evaluating the need to update the
                     Commerce Control List.

                     In August 2004, the Deputy Secretary of Defense directed the Secretary
                     of the Air Force and other DoD Officials to direct a search to identify
                     and produce “…all documents, from January 2001 to the present,
                     relating to any program to acquire commercially derivative aerial
                     refueling tanker aircraft [KC-767 Tanker Aircraft Program]….” In
                     September 2004, the Secretary of Defense transferred the responsibility
                     for the ongoing production of KC-767 tanker lease documents to the
                     DoD OIG and directed the DoD OIG to ensure that the documents
                     gathered in response to the Deputy Secretary of Defense’s August 2004
                     memorandum represented all relevant and responsive documents. The


                                         26
Semiannual Report for Transmission to Congress                                           Chapter One




                             DoD OIG has committed a significant portion of its resources to support
                             the required task. As of March 24, 2005, the DoD OIG has reviewed
                             nearly 1,000,000 unclassified KC-767 Tanker Aircraft Program
                             document pages of DoD and Air Force material provided in response to
                             the Deputy’s August 2004 memorandum. The DoD OIG expects to
                             complete the existing review, packaging, and distribution of the KC-767
                             Tanker Aircraft documentation project by May 2005.

                             In December 2004, the DoD OIG completed a review of the documents
                             gathered by the Office of the Secretary of Defense and the Air Force
                             relating to the lease of the procurement of the KC-767A aircraft. The
                             DoD OIG examined and summarized the processes and procedures used
                             to ensure that all documents that were generated relating to the lease of
                             procurement of the KC-767 tanker aircraft were produced. The
                             DoD OIG reported that the Office of the Secretary of Defense and the
                             Department of the Air Force made a reasonable attempt to produce
                             available documents, although the existing e-mail record-keeping and
                             retrieval systems do not ensure that all documents that were generated
                             relating to the lease or procurement of the KC-767A tanker aircraft were
                             produced as requested.

                             The Army Audit Agency review of the Medical Funding for the Global
                             War on Terrorism, U.S. Army Medical Command, found that Army
                             medical activities generally used Global War on Terrorism (GWOT)
                             funds appropriately and properly recorded and accounted for the
                             majority of transactions using these funds. However, operating
                             personnel sometimes did not interpret or follow published U.S. Army
                             Medical Command guidance on a regular basis. As a result, the medical
                             activities were reimbursed about $4.8 million for unsupported GWOT
                             expenditures while other valid costs were not captured. Additionally,
                             about $14.3 million in transactions contained errors that needed
                             correction.

                             The Army Audit Agency review of vested and seized assets related to
                             Operation Iraqi Freedom, concluded that the Army properly secured and
                             accounted for seized cash and metal bars; however, numerous non-cash
                             assets were found to be unaccounted for and in some instances were
                             unprotected. The Comptroller’s Office, Coalition Provisional Authority
                             did not perform required reconciliations on its account balances for
                             vested and seized assets with Defense Finance and Accounting Service
                             and Department of Treasury records. Additionally, the Army did not
                             maintain a filing area with reasonable access to the official documents
                             that support disbursements from the vested and seized asset accounts.


                                                 27
Chapter One                             Semiannual Report for Transmission to Congress




              Despite these problems, evidence showed transactions using vested and
              seized assets were for the benefit of the Iraqi people.

              In March 2005, the Inspector General signed a memorandum to the
              DCIOs announcing a new policy to accept requests for IG subpoenas for
              specified non-fraud related general crime investigations for a one-year
              trial period. Requests for general crimes subpoenas must satisfy criteria
              under the “DoD Nexus Test” to determine if the crime at issue is
              sufficiently relevant to the DoD to warrant the IG’s involvement in the
              investigation, and a “Particular Crime Test” that specifies the types of
              crimes for which the non-fraud subpoenas will be issued. During this
              period, the IG will evaluate (1) the criteria utilized to identify those
              DoD-related general crime investigations for which the subpoenas are
              issued; and (2) the overall effectiveness/usefulness of IG subpoenas in
              the investigation of DoD-related general crimes.




                                  28
Semiannual Report for Transmission to Congress                                           Chapter Two




CHAPTER 2 - OFFICE OF THE INSPECTOR GENERAL

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Auditing (ODIG-AUD)
GENERAL FOR                 conducts audits on all facets of DoD operations. The work results in
AUDITING                    recommendations for reducing costs, eliminating fraud, waste, and abuse
                            of authority, improving performance, strengthening internal controls, and
                            achieving compliance with laws, regulations, and policies. Audit topics
                            are determined by law, by requests from the Secretary of Defense and
                            other DoD leadership, by Hotline allegations, by congressional requests,
                            and by internal analyses of risk in DoD programs.

                            The ODIG-AUD serves as the focal point for Government Accountability
                            Office (GAO) activity in the DoD, and continues to perform follow-up on
                            GAO and DoD OIG report recommendations.

 DoD Audit                  The defense audit community consists of the DoD OIG, the Army Audit
 Community                  Agency, the Naval Audit Service, and the Air Force Audit Agency. As a
                            whole, the organizations issued 197 reports, which identified the
                            opportunity for $908,331,498 in monetary benefits. Appendix A lists
                            reports issued by central DoD internal audit organizations. Appendices B
                            and C, respectively, list DoD OIG reports with potential monetary
                            benefits and statistically summarizes audit follow-up activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 17,309 reports during the period. The contract
                            audits resulted in almost $3.9 billion in questioned costs and funds that
                            could be put to better use. Appendix D contains the details of the audits
                            performed. Contracting officers disallowed $159 million of the $491
                            million questioned as a result of significant post-award audits. However,
                            this does not include the Army’s data because they were unable to submit
                            its data by the date required for inclusion in the semiannual report.
                            Additional details on the amounts disallowed are found in Appendix E.

 Significant Open           Managers accepted or proposed acceptable alternatives for 284 (97
 Recommendations            percent) of the 293 DoD OIG audit recommendations made in the first 6
                            months of fiscal year 2005. Many recommendations require complex and
                            time-consuming actions, but managers are expected to make reasonable
                            efforts to comply with agreed-upon implementation schedules. Although
                            most of the 899 open actions being traced in the DoD OIG follow up
                            systems are on track for timely implementation, there were 206 reports
                            more than 12 months old, dating back as far as 1991, for which




                                                 29
Chapter Two                                                          Semiannual Report for Transmission to Congress




                                  management has not completed actions to implement the recommended
                                  improvements.1

                                  Significant open recommendations that have yet to be implemented
                                  include the following:

                                         •    Recommendations made in 2002 and 2003 to negotiate
                                              amendments to Cooperative Threat Reduction (CTR) Program
                                              agreements to use U.S.-provided assistance for intended
                                              purposes remain open. Related recommendations made in 2004.
                                              Proposed CTR agreement amendments to ensure that the
                                              Russian Federation will meet its commitments, and also to
                                              provide access to, and visibility over the use of U.S.-funded
                                              CTR facilities are being coordinated among Russian Federation
                                              Ministries. Actions are being taken to reclaim facility
                                              components or utilize remaining assets for CTR purposes, and to
                                              avoid the pitfalls that resulted in construction of facilities that
                                              were not used as intended.

                                         •    Recommendations made in 2002 to develop and implement
                                              consistent guidance and a process to measure and assess
                                              interoperability and information assurance policies for the
                                              acquisition of DoD weapon systems. Applicable DoD policies in
                                              process of being revised.

                                         •    Recommendations made in 2002 to improve oversight and
                                              management controls, and develop training for the DoD
                                              purchase card program. A standardized training program for
                                              cardholders and billing officials has been developed. DoD
                                              policies and guidance on purchase card use and management
                                              controls nearing completion.




1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to
  complete final action with regard to a management decision within the 12-month period, the inspector general concerned
  shall identify the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector
  General Act of 1978 (5 U.S.C. App.) until final action on the management decision is completed.” A list of OIG DoD
  reports on which management decisions have been made but final action has not been taken is continued in the Secretary
  of Defense Report issued pursuant to section 5(a) of the Inspector General Act.




                                                             30
Semiannual Report for Transmission to Congress                                            Chapter Two




                                  •   Recommendations made in 2001 and subsequent years
                                      addressing financial systems deficiencies and the DoD Financial
                                      Management improvement plan. In response to
                                      recommendations made in 2003, efforts are underway to
                                      establish an integrated repository that will include existing
                                      relevant databases and will capture information technology
                                      systems and business systems, as well as budget data. Initiatives
                                      underway to correct financial systems deficiencies should
                                      enable the Department to provide accurate, timely, and reliable
                                      financial statements.

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Investigations (ODIG-
GENERAL FOR                 INV) comprises the criminal and the administrative investigative
INVESTIGATIONS              components of the DoD OIG. The Defense Criminal Investigative Service
                            (DCIS) is the criminal investigative component of the DoD OIG. The
                            non-criminal investigative units include the Directorate for Investigations
                            of Senior Officials (ISO), the Directorate for Military Reprisal
                            Investigations (MRI), and the Directorate for Civilian Reprisal
                            Investigations (CRI).

 Defense Criminal           The Defense Criminal Investigative Service (DCIS) is tasked with the
 Investigative              mission to protect America’s warfighters by conducting investigations in
 Service                    support of crucial national defense priorities. The DCIS conducts
                            investigations of suspected major criminal violations focusing mainly on
                            terrorism, product substitution/defective parts, cyber crimes/computer
                            intrusion, illegal technology transfer, and other categories of fraud
                            including bribery, corruption, and major theft. The DCIS also promotes
                            training and awareness in all elements of the DoD regarding the impact of
                            fraud on resources and programs by providing fraud awareness
                            presentations.

 Defense Criminal           The Defense Criminal Investigative Organizations (DCIOs) combat crime
 Investigative              affecting the DoD, both domestic and overseas, with highly trained
 Organizations              special agents, forensic experts, analysts, and support personnel. The
                            DCIS, a component of the DoD OIG; the U.S. Army Criminal
                            Investigation Command (USACIDC); the Naval Criminal Investigative
                            Service (NCIS); and the Air Force Office of Special Investigations
                            (AFOSI) support the Secretary of Defense management challenges and
                            protect the military and civilian men and women of the Department.
                            Examples of the DCIOs’ mission initiatives and investigative
                            accomplishments are detailed in Chapter 1 under the nine management
                            challenges.




                                                  31
Chapter Two                                       Semiannual Report for Transmission to Congress




                        Monetary recoveries and fines related to all criminal investigations
                        throughout the DoD totaled more than $420 million. Figure 2 below
                        displays other statistical results achieved by the investigative
                        organizations during this semiannual reporting period.




                      Judicial and Administrative Actions
                             Convictions    Indictments     Debarments      Suspensions

         Terrorism               21              22

         Procurement/                                            81              55
         Health Care Fraud
                                 28              26

         Other                  206             215

         Total                   255            263


                                           Figure 2




                                           32
Semiannual Report for Transmission to Congress                                                                                       Chapter Two




 Directorate for                      The DoD OIG Directorate for Investigations of Senior Officials conducts
 Investigations of                    investigations into allegations against senior military and civilian officials
 Senior Officials                     and performs oversight of senior official investigations conducted by the
                                      military departments.

                                      Figure 3 (below) and Figure 4 (the following page) show results of
                                      activity on senior official cases during the first six months of FY 2005. On
                                      March 31, 2005, there were 242 ongoing investigations into senior official
                                      misconduct throughout the Department, representing little change from
                                      October 1, 2004, when we reported 241 open investigations. Over the past
                                      6 months, the Department closed 255 senior official cases, of which 48
                                      (19 percent) contained substantiated allegations.




                                      .
                                      DoD Total Senior Official Cases
                                           FY 2000 - FY 2005

              600                               578

                                                           503                                          489
                                          488
              500    455                                         460
                                                                                 503              472
                                                                                       427
                           402
              400
              300                                                                                                         255
                                                                                                                    232

              200
                                                      89
              100                69                                    70                    57               71
                                                                                                                                48


                0
                      FY00                 FY01             FY02                  FY03             FY04            FY05--1st
                                                                                                                     Half

                                                Opened           Closed                Substantiated


                    This chart shows the total number of senior official investigations
                     conducted in DoD over the past five and one-half fiscal years.




                                                                       Figure 3




                                                                            33
Chapter Two                                                     Semiannual Report for Transmission to Congress




          Nature of Substantiated Allegations Against Senior Officials
                            During 1st Half FY 05


                          Other                Failure to Act             Conduct
                        Misconduct                  13%                  Unbecoming
                                                                                           Abuse of
                           11%                                              4%
                                                                                           Authority/
                                                                                          Favoritism
                                                                                             16%




                                                                                      Sexual Harassment/
         Misuse Gov't
                                                                                          Improper
          Property/                                Improper Personnel                    Relationship
          Resources                                     Action                               11%
            30%                                          15%




                                                          Figure 4



 Directorate for             The DoD OIG Directorate for Military Reprisal Investigations (MRI)
 Military Reprisal           conducts investigations and performs oversight of investigations
 Investigations              conducted by the military departments. Those investigations pertain to:

                                     •   Allegations that unfavorable actions were taken against
                                         members of the Armed Forces, DoD non-appropriate fund
                                         employees, and Defense contractor employees in reprisal for
                                         making protected communications; and

                                     •   Allegations that members of the Armed Forces were referred for
                                         mental health evaluations without being afforded the procedural
                                         rights prescribed in the DoD Directive and Instruction.




                                                     34
Semiannual Report for Transmission to Congress                                             Chapter Two




 Whistleblower              During the reporting period, MRI and the military department IGs
 Reprisal Activity          received 284 complaints of whistleblower reprisal. We closed 212 reprisal
                            cases during this period. Of those 212 cases, 159 were closed after
                            preliminary analysis determined further investigation was not warranted
                            and 53 were closed after investigation. Of the 53 cases investigated, 11
                            (21%) contained one or more substantiated allegations of whistleblower
                            reprisal.

                            The MRI and the military departments currently have 409 open cases
                            involving allegations of whistleblower reprisal.

 Examples of                An Army staff sergeant stationed at Fort Hood, Texas, alleged his
 Substantiated              sergeant major threatened him with denial of reassignment to restrict him
 Whistleblower              from submitting a complaint of assault to the military police. An Army
 Reprisal Cases             investigation found that the sergeant major restricted, counseled, and
                            threatened the staff sergeant in reprisal for his protected communication.
                            Corrective action is pending against the sergeant major.

                            A Navy petty officer second class assigned to Guantanamo Bay, Cuba,
                            alleged he was issued written counseling, an unfavorable fitness report,
                            and denied an end of tour award in reprisal for making complaints to an
                            inspector general and his chain of command about medical equipment
                            accountability. A Navy investigation determined that the reporting senior
                            took the adverse personnel actions against the petty officer in reprisal for
                            his protected communications. Corrective action is pending.

                            An Air Force senior airman at Barksdale Air Force Base, Louisiana,
                            alleged she was issued an unfavorable evaluation in reprisal for her
                            Military Equal Opportunity complaint. An Air Force investigation
                            substantiated reprisal allegations against the squadron commander.
                            Corrective action is pending against the squadron commander.

 Referrals for Mental       We closed twenty seven (27) cases involving allegations of improper
 Health Evaluations         referrals for mental health evaluations during the reporting period. In 15
                            (56%) of those cases, we substantiated that command officials and mental
                            health care providers failed to follow the procedural requirements for
                            referring Service members for mental health evaluations under DoD
                            Directive 6490.1, “Mental Health Evaluations of Members of the Armed
                            Forces.” Although these officials failed to follow procedural guidelines,
                            we did not substantiate these mental health referrals were in reprisal for
                            Service members’ protected communications.




                                                  35
Chapter Two                                         Semiannual Report for Transmission to Congress




 Directorate for        The DoD OIG Directorate for Civilian Reprisal Investigations (CRI) was
 Civilian Reprisal      established in January 2004, to serve as “advocate” protecting civilian-
 Investigations (CRI)   employee relaters of fraud, waste, abuse of authority, and mismanagement
                        in the DoD. The CRI conducts investigations, coordinates personnel
                        management remedies and reaches out to federal and non-federal agencies
                        involved with whistleblower affairs.

                        The primary focus of CRI’s outreach during this period has been directed
                        at increasing communication between those DoD components which
                        conduct investigations into alleged reprisals against members of the DoD
                        intelligence community. The Directorate has a total of 18 active, open
                        cases.

DEPUTY INSPECTOR        The Office of the Deputy Inspector General for Intelligence (ODIG-
GENERAL FOR             INTEL) audits, reviews, evaluates, and monitors the programs, policies,
INTELLIGENCE            procedures, and functions of the DoD Intelligence Community and the
                        intelligence-related activities within the DoD Components, primarily at
                        the DoD, Service, and Combatant Command levels, ensuring that
                        intelligence and intelligence-related resources are properly, effectively,
                        and efficiently managed. The ODIG-INTEL also conducts oversight of
                        Service and Defense agency reviews of security and counterintelligence
                        within all DoD test and laboratory facilities.

 Intelligence           The DoD OIG, the IGs of the Defense Intelligence Agency, National
 Community              Geospatial-Intelligence Agency, National Reconnaissance Office, and
                        National Security Agency; the Air Force Audit Agency; and the Defense
                        Contract Audit Agency completed 64 intelligence-related and other
                        classified and sensitive reports. The reports are categorized into the areas
                        shown in Figure 5 on the following page. A listing and highlights of the
                        64 reports can be found in the Classified Annex to this report.




                                              36
   Semiannual Report for Transmission to Congress                                            Chapter Two




                                IG and Audit Agency Reviews (U)
                                                     Defense      Military
  DoD Management Challenge Area         DoD OIG      Agencies   Departments                 Total
Joint Warfighting and Readiness            0            22           0                       22
Homeland Defense                           0             0           1                       1
Human Capital                              0            10           0                       10
Information Technology Management          1             0           0                       1
Acquisition Processes and Contract         1             7           0                       8
Management
Financial Management                       0             7           0                        7
Health Care                                0             0           0                       0
Logistics                                  0             1           0                       1
Infrastructure and Environment             0             1           0                       1
Other Reports                              0            13           0                       13

TOTAL REPORTS ISSUED                           2               61             1              64

                                                    Figure 5



                               The Intelligence Community Inspectors and Auditors General continued
                               to coordinate and share information to improve the effectiveness and
                               efficiency of oversight of DoD intelligence activities. The Intelligence
                               Community Inspectors General Forum serves as a mechanism for sharing
                               information among inspectors general whose duties include audit,
                               evaluation, inspection, or investigation of programs and operations of
                               Intelligence Community elements. The Information Assurance Working
                               Group, established by the Intelligence Community Inspectors General
                               Forum in 1999, monitors and evaluates the status of management policies
                               and oversight of efforts to protect the Intelligence Community systems.
                               Within DoD, the Joint Intelligence Oversight Coordination Group
                               comprises senior representatives from the Office of the Secretary of
                               Defense, the inspectors general of the Defense intelligence agencies, and
                               military department audit, evaluation, and inspection organizations. The
                               objectives of this group are to improve the effectiveness and efficiency of
                               DoD oversight of intelligence activities by identifying areas needing more
                               emphasis and deconflicting oversight programs. See the Classified Annex
                               to this report for information on meetings of these groups.




                                                    37
Chapter Two                                     Semiannual Report for Transmission to Congress




DEPUTY INSPECTOR    The Office of the Deputy Inspector General for Inspections and Policy
GENERAL FOR         (ODIG-I&P) conducts inspections and evaluations, manages the DoD
INSPECTIONS AND     Hotline, and provides the oversight and policy for Audit and Investigative
POLICY              activities within DoD, as required by Section 8 of the IG Act.

 Inspections and    The Inspections and Evaluations Directorate within the Office of the
 Evaluations        Deputy Inspector General for Inspections and Policy promotes positive
 Directorate        change by identifying opportunities for performance and efficiency
                    improvements in DoD programs and operations. The Directorate conducts
                    objective and independent customer-focused management and program
                    inspections addressing areas of interest to Congress and the Department
                    of Defense.

                    The Directorate is projected to build to 50 military and civilian personnel
                    by the end of fiscal year 2005. The organizational structure will include
                    six divisions:

                             Joint Operations, Defense Agencies, and Service Inspectors
                             General
                             Reserve Forces
                             Homeland Defense
                             Safety and Operational Health
                             Engineering and Environment
                             Special Projects and Technical Assistance

                    These divisions are designed to provide broad subject area expertise to
                    address the goals of the President’s Management Agenda, General
                    Accountability Office High Risk Areas, the Secretary of Defense’s List of
                    Top Ten Priorities, the DoD IG’s Strategic Plan and requests from
                    Congress, DoD officials, and the Inspector General.

 Audit Policy and   In accordance with the Inspector General Act of 1978, as amended, the
 Oversight          Office of Assistant Inspector General for Audit Policy and Oversight
 Directorate        (APO) provides policy direction and oversight for audits performed by
                    over 6,500 DoD auditors in 24 DoD organizations, ensures appropriate
                    use of non-federal auditors and their compliance with auditing standards
                    and ensures that contracting officials comply with statutory and
                    regulatory requirements when resolving contract audit report
                    recommendations in accordance with DoD Directive 7640.2, “Policy for
                    Follow-up on Contract Audit Reports.” During the reporting period, APO
                    issued three reports that addressed the quality of audits and auditor



                                          38
Semiannual Report for Transmission to Congress                                          Chapter Two




                            workplace and the effectiveness of contracting officer implementation of
                            contract audit recommendations. The APO also provided an internal
                            management control review of the DoD OIG use of premium travel. The
                            reports are:

                                  •   Assist Review of Special Inspector General for Iraqi
                                      Reconstruction (D-2005-6-004, March 24, 2005);

                                  •   Review of Defense Contract Management Agency Santa Ana
                                      Office’s Actions on Incurred Cost Audits (D-2005-6-003, March
                                      17, 2005);

                                  •   (U//FOUO) Congressional Inquiry in Allegations Concerning an
                                      Abusive Work Environment at the Defense Contract Audit
                                      Agency New York Branch Office (D-2005-6-002, March 8,
                                      2005); and

                                  •   Quality Control Review of Business-Class Airfares Within the
                                      Office of the Inspector General of the Department of Defense
                                      (D-2005-6-001, November 12, 2004).

                            The APO has also been instrumental in addressing potential independence
                            issues related to proposed actions the DoD is taking to improve its
                            financial management workforce and has provided and coordinated on a
                            number of significant Federal Acquisition Regulation (FAR) and Defense
                            Federal Acquisition Regulation Supplement (DFARS) cases and other
                            policy issues related to defense acquisition.

                                  •   Provided comments that address our concerns regarding DoD
                                      OIG and auditor (GS-511) independence to the Under
                                      Secretaries of the Comptroller and Personnel and Readiness on
                                      three initiatives to improve the financial management
                                      workforce. The initiatives were: Draft Management Initiative
                                      Decision No, 922, “Consolidate Civilian Financial Management
                                      Education and Training,” Draft DoD Policy, “Certification for
                                      DoD Professional Accounting Positions,” and the DoD
                                      Financial Management Workforce Development Working
                                      Group;

                                  •   Commented on proposed changes to FAR/DFARS making
                                      recommendations to clarify language and ensuring consistency
                                      with legislation; and




                                                 39
Chapter Two                                        Semiannual Report for Transmission to Congress




                             •   Commented on three DoD FY 2006 Non-Budgetary Proposals
                                 that resulted in improved and clarified proposed legislation and
                                 withdrawal of a proposal that would have significant issues for
                                 the acquisition community to properly implement.

                        APO also:

                             •   Participated in revising the President’s Council on Integrity and
                                 Efficiency (PCIE) “Guide for Conducting External Peer
                                 Reviews of the Audit Operations of Offices of Inspector
                                 General” and in establishing the plan for the PCIE sponsored
                                 National Single Audit Sampling Initiative;

                             •   Provided comments on the Draft GAO Government Auditing
                                 Standards Guidance on Requirements for Continuing
                                 Professional Education; and

                             •   Gave presentations at conferences and training events such as
                                 the Defense Contract Audit Agency Quality Assurance
                                 Conference (Atlanta GA); the National Single Audit Sampling
                                 Project (Washington D.C.), and the Association of Defence
                                 Auditors (Melbourne, Australia).

 Investigative Policy   The Investigative Policy and Oversight Directorate (IPO) evaluates the
 and Oversight          performance and develops/implements policy for the DoD law
 Directorate            enforcement community and the non-criminal investigative offices of the
                        DoD. The IPO also manages the IG Subpoena Program for the Defense
                        Criminal Investigative Organizations (DCIOs) and administers the DoD
                        Voluntary Disclosure Program, which allows contractors a means to
                        report potential civil or criminal fraud matters.

 DoD Hotline            The DoD OIG Hotline continues its primary mission of providing a
                        confidential and reliable means for DoD civilian and contractor
                        employees, military service members, and the public to report fraud,
                        waste, mismanagement, abuse of authority, trafficking in persons, and
                        leaks of classified information within the Department of Defense. During
                        this reporting period, the DoD OIG Hotline received 6,284 contacts from
                        the public, members of the DoD community, the GAO, and the
                        Congress. The Hotline initiated 995 investigations including; 44
                        Congressional inquiries, 340 GAO inquiries, 71 reprisal complaints and
                        49 allegations of senior DoD official misconduct. There were 1,320 cases
                        closed during the reporting period that resulted in $280,613.00 being
                        returned to the Government.


                                             40
Semiannual Report for Transmission to Congress                                            Chapter Two




OFFICE OF                   The Office of Communications and Congressional Liaison (OCCL) is a
COMMUNICATIONS              staff element of the immediate Office of the Inspector General. This office
AND                         supports the DoD OIG by serving as the contact for communications to
CONGRESSIONAL               and from Congress, and by serving as the DoD OIG Public Affairs Office.
LIAISON                     The OCCL also includes the Freedom of Information Act/Privacy Act
                            Office and Strategic Planning. In addition, the OCCL provides staff
                            support and serves as the liaison for the DoD OIG to the President’s
                            Council on Integrity and Efficiency and the Defense Council on Integrity
                            and Efficiency (DCIE). The DoD IG established the DCIE in 2002 to
                            ensure effective coordination and cooperation between and among the
                            activities of the DoD OIG and Defense agencies.

 Comments on                Section 4(a) of the Inspector General Act requires the Inspector General
 Legislation /              “to review existing and proposed legislation and regulations relating to
 Testimony                  the program and operations of [the Department of Defense]” and to make
                            recommendations “concerning the impact of such legislation or
                            regulations on the economy and efficiency in the administration of
                            programs and operations administered or financed by [the Department] or
                            the prevention and detection of fraud and abuse in such programs and
                            operations.” The DoD OIG routinely receives legislation for review that
                            has been referred to the Department of Defense for comment. The DoD
                            OIG comments provided during the reporting period included the
                            following:

                                  •   S. 394, the OPEN Government Act of 2005, which would amend
                                      the Freedom of Information Act (FOIA). The DoD OIG
                                      commented on Section 6 of the bill which provides that if an
                                      agency fails to determine whether it will comply with a request
                                      for records within specified time limits, it cannot deny the
                                      release of information based on the exemptions provided by
                                      FOIA. The DoD OIG comments stated that this provision could
                                      result in the disclosure of information the FOIA was intended to
                                      protect, including “records or information compiled for law
                                      enforcement purposes” (5 USC 552(b)(7)). The release of such
                                      information could impede ongoing criminal investigations and
                                      interfere with enforcement proceedings.

                                  •   The DoD OIG submitted a draft legislative proposal to Congress
                                      to strengthen the independence and effectiveness of inspectors
                                      general in providing oversight of national security and
                                      intelligence programs and operations and in receiving,
                                      investigating or otherwise resolving complaints alleging abuses




                                                  41
Chapter Two                               Semiannual Report for Transmission to Congress




                       of civil rights and liberties. The legislative proposal includes
                       provisions to:

                       »   Clarify that the Inspector General of the Office of the
                           Director for National Intelligence shall be appointed by the
                           President, by and with the advice and consent of the Senate;

                       »   Establish a Civil Rights/Civil Liberties person in the offices
                           of the National Security Inspectors General (incorporates
                           language from Section 8304 of the Intelligence Reform and
                           Terrorism Prevention Act of 2004);

                       »   Strengthen IG independence by incorporating provisions of
                           the Sarbanes-Oxley Act;

                       »   Formalize the oversight exercised by the Intelligence
                           community Inspectors General Forum;

                       »   Allow Inspectors General to be reimbursed for all costs and
                           expenses incurred, including salaries of officers and
                           employees of the DoD OIG, in conducting investigations,
                           audits, and inspections in support of the Global War on
                           Terrorism; and

                       »   Require the head of the establishment to submit to the
                           appropriate committees or subcommittees a statement
                           describing the differences between the budget request
                           submitted by the Inspector General and the actual request
                           forwarded by the head of the establishment.

              The DoD OIG commented on proposed changes to Federal Acquisition
              Regulations (FAR), and on proposed FY 2006 Non-Budgetary items. We
              disagreed with a proposed FAR Case 2004-006, “Accounting for
              Unallowable Costs,” that would allow sampling to identify unallowable
              costs, because it will result in confusion, inconsistent practices, and
              disputes. However, we suggested language to specify what an adequate
              sampling plan entails and the need to add these to the advance agreements
              if the proposal is implemented. In response to DoD FY 2006 non-
              budgetary proposals, we did not concur with proposals for “Authorizing
              Fixed Material Handling Rates for Commercial Time and Material
              Contracts,” “Making the Statutory Executive Compensation CAP
              Prospective from the Date of the Legislation,” and “Eliminate
              Performance of Research from the Preference for Performance-Based


                                   42
Semiannual Report for Transmission to Congress                                          Chapter Two




                            Contracts and Task Orders.” Based on comments and discussions, the
                            proponent for “Authorizing Fixed Material Handling Rates for
                            Commercial Time and Material Contracts” withdrew the proposals. Based
                            on additional information and modifications to the proposals, we reached
                            agreement on the two other proposals.

                            The DoD OIG also regularly reviews new and revised regulations
                            proposed by the Department of Defense. During this reporting period the
                            DoD OIG reviewed 167 draft issuances or re-issuances of DoD directives,
                            instructions, manuals and other policy guidance.




                                                 43
Chapter Two                          Semiannual Report for Transmission to Congress




              This page left blank intentionally




                               44
 Appendix A                                               Semiannual Report for Transmission to Congress
                             APPENDIX A*
      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS
   Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
   consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
   DoD.

   Copies of reports may be obtained from the appropriate issuing office by calling:

                  DoD OIG                                      Army Audit Agency
                  (703) 604-8937                               (703) 681-9863

                  Naval Audit Service                          Air Force Audit Agency
                  (202) 433-5525                               (703) 696-8014


              Summary of Number of Reports by Management Challenge Area
                           April 1, 2004
                          October        - September
                                     1, 2004 - March 30,
                                                     31, 2004
                                                         2005

                                                      DoD OIG Military Depts.         Total
   Joint Warfighting and Readiness                          -             7              7
   Homeland Defense                                         -            4              4
   Human Capital                                            1            18             19
   Information Technology Management                        5             6             11
   Acquisition Processes/Contract Management                7            38             45
   Financial Management                                    24            37             61
   Health Care                                              -            6              6
   Logistics                                                2            16             18
   Infrastructure and Environment                           1            18             19
   Base Realignment and Closure**                           3             -             3
   Other                                                    1            3              4
    Total                                                  44           153            197
   For information on intelligence-related reports, including those issued by other Defense
   agencies, refer to the classified annex to this report.




 * Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C.,
   Appendix 3, Section 5(a)(6) (See Appendix B).

** In accordance with the Under Secretary of Defense of Acquisition, Technology, and Logistics/Chairman,
Infrastructure Steering Group policy memorandum “Transformation Through Base Realignment and Closure
(BRAC 2005) Policy Memorandum One--Policy, Responsibilities, and Procedures,” April 16, 2003, BRAC-
related information will not be released to the public until the Secretary of Defense forwards his
recommendations to the 2005 BRAC Commission on May 16, 2005. In addition, BRAC-related reports are
exempt from release under section 552 (b) (5), title 5, United States Code, “Freedom of Information Act,”
and DoD Directive 5400.7, “DoD Freedom of Information Act Program,” September 1998, (Exemption
Number 5, paragraph C3.2.1.5).

                                                     45
Semiannual Report for Transmission to Congress                                             Appendix A

                                                                       A-2005-0048-FFP Controls
 JOINT WARFIGHTING                   HOMELAND DEFENSE                  Over Leave, Overtime, and
 AND READINESS                                                         Compensatory Time by Army
                                                                       Commands in Hawaii
                                     Naval Audit Service               (11/19/04)
 Army Audit Agency                   N2005-0015 Department of the
                                     Navy Antiterrorism Risk           A-2005-0002-FFF Follow-up
 A-2005-0142-FFE Chemical,
                                     Assessment Management             Audit of Recruiter Productivity,
 Biological and Nuclear
                                     Approach for Navy Region          U.S. Army Recruiting
 Survivability Testing for Army
                                     Northwest (FOR OFFICIAL           Command, Fort Knox,
 Systems (12/23/04)
                                     USE ONLY) (12/20/04)              Kentucky (11/24/04)
 A-2005-0081-FFF Individual
                                     N2005-0019 Department of the      A-2005-0060-FFE
 Ready Reserve and Individual
                                     Navy Antiterrorism Risk           Requirements for Civilian Pilot
 Mobilization Augmentee
                                     Assessment Management             and Aircrew Safety, U.S. Army
 Soldiers, U.S. Army Human
                                     Approach for Navy Region          Aviation Center and Fort Rucker
 Resources Command,
                                     Southeast (FOR OFFICIAL           (12/09/04)
 Alexandria, Virginia (02/03/05)
                                     USE ONLY) (12/22/04)
                                                                       A-2005-0050-FFF Meals and
 A-2005-0106-FFF Follow-up
                                     N2005-0034 Staffing of            Lodging Contracts (12/10/04)
 Audit of the Use of Rail Cars for
 Transporting Equipment to           Security Functions at Naval
                                                                       A-2005-0101-FFH Community
 Combat Training Centers,            Installations (03/23/05)
                                                                       Club Renovation Project, Fort
 Deputy Chief of Staff, G-3/5/7                                        Buchanan, Puerto Rico
 (02/11/05)                          Air Force Audit Agency
                                                                       (02/23/05)
                                     F-2005-0005-FC1000 Foreign
 Naval Audit Service                 Disclosure Program (03/18/05)     A-2005-0112-FFF Follow-up of
 N2005-0030 Intergovernmental                                          Army Modernization Training
 Personnel Act Mobility Program                                        (New Equipment Training)
 Assignments (03/02/05)              HUMAN CAPITAL                     (03/02/05)

 Air Force Audit Agency                                                Naval Audit Service
                                     DoD OIG
 F-2005-0001-FD3000 Space                                              N2005-0003 Navy and Marine
 Weapons Officer Utilization         D-2005-024 Management of          Corps Recruiter Productivity
 (11/10/04)                          Navy Senior Enlisted Personnel    (10/12/04)
                                     Assignments in Support of
 F-2005-0002-FD3000 Chemical         Operation Iraqi Freedom           N2005-0012 Navy High School
 Warfare Defense Equipment           (12/15/04)                        Graduate Recruiting (12/03/04)
 (02/03/05)
                                     Army Audit Agency                 N2005-0016 Operations at
 F-2005-0002-FD2000                                                    Marine Corps Community
                                     A-2005-0026-FFH Morale,           Services, Camp Butler
 Personnel Support for               Welfare and Recreation Club
 Contingency Operations                                                (12/22/04)
                                     System, Fort Sam Houston,
 (03/15/05)                          Texas (10/19/04)                  N2005-0021 Termination of
                                                                       Basic Allowance for Housing
                                     A-2005-0017-ALA FY 04             for Personnel Residing in Navy
                                     Follow-up of Combined Arms        Housing at Pacific Activities
                                     Tactical Trainer (Audit Report:   (01/06/05)
                                     A-2003-0113-AMA), Office of
                                     the Deputy Chief of Staff, G-3    N2005-0028 Department of the
                                     (11/01/04)                        Navy’s Retirement Generational
                                                                       Planning (02/18/05)




                                                  46
Appendix A                                           Semiannual Report for Transmission to Congress


N2005-0029 Sea Pay                D-2005-029 Management of          CONTRACT
Entitlement (02/25/05)            Information Technology            MANAGEMENT
                                  Resources Within DoD
N2005-0036 Verification of the    (01/27/05)
Reliability and Validity of the                                     DoD OIG
Navy Enlisted System Data         Army Audit Agency
(FOR OFFICIAL USE ONLY)                                             D-2005-005 Award of the Air
(03/30/05)                        A-2005-0040-FFI Server            Force F-15 Trainer Support
                                  Consolidation (11/05/04)          Contract (FOR OFFICIAL USE
Air Force Audit Agency                                              ONLY) (10/21/04)
                                  A-2005-0110-FFF Follow-up
F-2005-0001-FD1000 Civil          Audit of Computer Based           D-2005-006 Overseas Purchase
Engineer Civilian Grade           Training for Information          Card Transactions by DoD
Structure (12/13/04)              Technology (e-Learning), Army     Dependents Schools-Europe
                                  Chief Information Officer/G-6     (10/20/04)
F-2005-0001-FD4000 Civilian       (02/24/05)
Equal Employment Opportunity                                        D-2005-009 Pueblo Chemical-
(02/02/05)                        A-2005-0115-FFF Revalidation      Agent-Destruction Pilot Plant
                                  of Material Weaknesses-           Project (FOR OFFICIAL USE
F-2005-0002-FD4000                Automated Mobilization System     ONLY) (11/01/04)
Advanced 7-Level Technical        (03/04/05)
Schools (03/22/05)                                                  D-2005-021 Contract Award
                                  Naval Audit Service               and Administration for Modular
                                                                    Causeway Systems (11/22/04)
INFORMATION                       N2005-0008 Information
                                  Assurance Vulnerability Alert     D-2005-027 Contract With
TECHNOLOGY
                                  Process (10/25/04)                Reliant Energy Solutions East
MANAGEMENT
                                                                    (01/28/05)
                                  Air Force Audit Agency
DoD OIG                           F-2005-0001-FB4000                D-2005-033 Implementation of
                                  Accountability and Control of     the Interoperability and
D-2005-001 Report on Defense                                        Information Assurance Policies
                                  Secure Terminal Equipment (02/
Civilian Pay System Controls                                        for Acquisition of Navy Systems
                                  02/05)
Placed in Operation and Test of                                     (02/02/05)
Operating Effectiveness for the   F-2005-0002-FB4000
Period March 1, 2004 through      Information Assurance Position    D-2005-034 Implementation of
September 10, 2004 (10/01/04)     Certification Training for Air    Interoperability and Information
                                  Force Network Professionals       Assurance Policies for
D-2005-002 Reporting of                                             Acquisition of Air Force
                                  (03/21/05)
Capital Investments for                                             Systems (02/02/05)
Technology in Support of the
FY 2005 Budget Submission                                           Army Audit Agency
(10/12/04)
                                                                    A-2005-0009-ZBI Coordinating
D-2005-023 Assessment of DoD                                        Requirements for Special
Plan of Action and Milestones                                       Access Programs, Site D (FOR
Process (FOR OFFICIAL USE                                           OFFICIAL USE ONLY)
ONLY)       (12/13/04)            ACQUISITION                       (10/06/04)
                                  PROCESSES AND                     A-2005-0015-ALA Theater
D-2005-025 DoD FY 2004
Implementation of the Federal                                       Support Vessel Program, Office
Information Security                                                of the Product Manager, Army
Management Act for                                                  Watercraft Systems (10/13/04)
Information Technology
Training and Awareness
(12/17/04)


                                                47
Semiannual Report for Transmission to Congress                                          Appendix A


A-2005-0016-ALA Follow-up          A-2005-0043-ALE Logistics         A-2005-0126-FFE Management
on the Audit of Formulating the    Civil Augmentation Program in     of Government-Furnished
Army’s Recapitalization            Kuwait, U.S. Army Field           Property, U.S. Army Garrison,
Program (10/18/04)                 Support Command (11/24/04)        Fort Hood, Texas (03/04/05)

A-2005-0031-ALM Tactical           A-2005-0064-ALT                   Naval Audit Service
Software Maintenance, Office of    Performance of the Post-
the Program Executive Officer,     Competition Most Efficient        N2005-0002 Sea-Navigation
Aviation; and U.S. Army            Organizations (12/09/04)          Warfare Program (FOR
Aviation and Missile Research,                                       OFFICIAL USE ONLY)
Development and Engineering        A-2005-0084-ALA Earned            (10/07/04)
Center, Redstone Arsenal,          Value Management, Program
                                   Executive Office, Aviation        N2005-0014 Navy Supply
Alabama (10/18/04)                                                   Systems Command Commercial
                                   (12/21/04)
A-2005-032-ALM Tactical                                              Purchase Card Program
Software Maintenance, Office of    A-2005-0090-ALM Follow-up         (10/07/04)
the Program Executive Officer,     on Mobile Subscriber
                                   Equipment, U.S. Army              N2005-0006 Independent
Air, Space & Missile Defense;                                        Review of Pacific Northwest
and U.S. Army Aviation and         Communications-Electronics
                                   Command (01/06/05)                Airfield Support, Whidbey
Missile Research, Development                                        Island, WA (10/20/04)
and Engineering Center,
Redstone Arsenal, Alabama (10/     A-2005-0093-FFP Logistics
                                   Cost Sharing Program, U.S.        N2005-0007 Department of the
18/04)                                                               Navy EA-6B Engine
                                   Forces Korea and Eighth U.S.
                                   Army (01/12/05)                   Modifications and Phase-out
A-2005-0029-FFH Selected                                             (10/20/04)
Acquisition Processes, Office of
the The Surgeon General            A-2005-0102-ALA The Army’s
                                   Purchase Card Program, U.S.       N2005-0009 Independent
(10/28/04)                                                           Review of Department of
                                   Army Armor Center, Garrison
                                   Command and Partners in           Defense Optical Fabrication
A-2005-0037-ALA Follow-up                                            Enterprise Production Cost
Audit of the Risk Management       Excellence, Fort Knox,
                                   Kentucky (2/07/05)                Study at Department of the
Program – Stryker Vehicle                                            Navy Continental U.S. Sites
System, Office of the Project                                        (FOR OFFICIAL USE ONLY)
Manager, Brigade Combat Team       A-2005-0120-ALA Data-
                                   Mining Technicians for            (11/03/04)
(11/01/04)
                                   Purchase Card Oversight (FOR
                                   OFFICIAL USE ONLY)                N2005-0017 Independent
A-2005-0035-ALA Force XXI                                            Review of the Navy Region
Battle Command, Brigade and        (02/24/05)
                                                                     Northwest Seaport Services
Below, Fort Monmouth, New                                            Operations (12/22/04)
Jersey (11/05/04)                  A-2005-0114-ALA Army
                                   Transformation Team Terms of
                                   Reference (02/25/05)              N2005-0018 Marine Corps
A-2005-0036-ALA Selected                                             Systems Command Contracts
Aspects of Performance                                               Supporting Operation Iraqi
Requirements -- Stryker, Office    A-2005-0121-ALS Follow-up
                                   Audit of Global Combat Support    Freedom (12/22/04)
of the Project Manager, Brigade
Combat Team (11/05/04)             System-Army Program
                                   Contract, Office of the Program   N2005-0022 Independent
                                   Executive Officer, Enterprise     Review of Design Engineering
A-2005-0054-ZBI Coordinating                                         Function, Puget Sound Naval
Requirements for Special           Information Systems (02/28/05)
                                                                     Shipyard and Intermediate
Access Programs, Site C                                              Maintenance Facility
(CLASSIFIED) (11/23/04)            A-2005-0123-ALW Lead the
                                   Fleet Program, Office of the      Detachment Boston, MA
                                   Deputy Chief of Staff, G-4        (01/25/05)
                                   (03/03/05)




                                                 48
Appendix A                                            Semiannual Report for Transmission to Congress


N2005-0023 Independent            F-2005-0003-FC1000 354th           D-2005-013 Independent
Review of Mechanicsburg/          Fighter Wing, Eielson AFB AK,      Auditor's Report on the Fiscal
Philadelphia PA Whole Activity    Refuse and Recycling               Year 2004 Department of the
Study (01/31/05)                  Collection and Disposal            Navy General Fund Financial
                                  Services and Refuse Derived        Statements (11/08/04)
N2005-0025 Procurement            Fuel Program (A-76 Direct
Planning and Requirements         Conversion) (02/02/05)             D-2005-014 Independent
Verifications for Navy Aviation                                      Auditor's Report on the Air
Common Support Equipment                                             Force General Funds Fiscal
(FOR OFFICIAL USE ONLY)           FINANCIAL                          Year 2004 Principal Financial
(02/07/05)                        MANAGEMENT                         Statements (11/08/04)
N2005-0026 The Pioneer                                               D-2005-015 Independent
Unmanned Aerial Vehicle           DoD OIG                            Auditor's Report on the Air
Sustainment Program (02/15/05)                                       Force Working Capital Fund
                                  D-2005-003 DoD                     Fiscal Year 2004 Principal
Air Force Audit Agency            Antideficiency Act Reporting       Financial Statements (11/08/04)
                                  and Disciplinary Process
F-2005-0001-FC1000 United         (10/14/03)                         D-2005-016 Independent
States Air Forces in Europe                                          Auditor's Report on the Fiscal
Multi-Support Functions, Royal    D-2005-004 Promptness of FY        Year 2004 U.S. Army Corps of
Air Force Croughton and Royal     2005 First Quarter DoD             Engineers, Civil Works,
Air Force Molesworth, United      Payments to the Department of      Financial Statements (11/08/04)
Kingdom (A-76 Cost                the Treasury for District of
Comparison) (12/13/04)            Columbia Water and Sewer           D-2005-017 Independent
                                  Services (10/15/04)                Auditor's Report on the Fiscal
F-2005-0002-FC1000 Air                                               Year 2004 DoD Agency-Wide
Education and Training            D-2005-007 Military Retirement     Financial Statements (11/08/04)
Command, Foreign Military         Fund Processes Related to
Sales, F-16 Aircraft              Deceased Retirees’ Accounts        D-2005-018 Endorsement of the
Maintenance, 21st Fighter         (10/25/04)                         Unqualified Opinion on the FY
Squadron, Luke AFB Arizona                                           2004 Military Retirement Fund
(A-76 Direct Conversion)          D-2005-008 Assessment of the       Financial Statements (11/08/
(12/13/04)                        U.S. Army Corps of Engineers,      04)
                                  Civil Works, FY 2004
F-2005-0001-FC3000 B-2            Beginning Financial Statement      D-2005-019 Endorsement of the
Flexible Acquisition and          Balance of Construction-In-        Qualified Opinion on the FY
Sustainment Team Contract (12/    Progress (10/28/04)                2004 DoD Medicare-Eligible
13/04)                                                               Retiree Health Care Fund
                                  D-2005-010 Independent             Financial Statements (11/08/04)
F-2005-0002-FC3000 F/A-22         Auditor's Report on the Fiscal
Producibility Improvement         Year 2004 Army Working             D-2005-022 Contracts
Program (12/29/04)                Capital Fund Financial             Classified as Irreconcilable in
                                  Statements (11/08/04)              the Mechanization of Contract
F-2005-0003-FC3000                                                   Administration Services System
Performance-Based Services        D-2005-011 Independent             (Contract No. DAAH01-92-C-
Acquisition Management            Auditor's Report on the Fiscal     R399 (12/02/04)
(01/05/05)                        Year 2004 Army General Fund
                                  Financial Statements (11/08/04)    D-2005-026 Reliability of U.S.
                                                                     Army Corps of Engineers, Civil
                                  D-2005-012 Independent             Works, Fund Balance With
                                  Auditor's Report on the Fiscal     Treasury and Unexpected
                                  Year 2004 Department of the        Appropriations (12/28/04)
                                  Navy Working Capital Fund
                                  Financial Statements (11/08/04)



                                                 49
Semiannual Report for Transmission to Congress                                           Appendix A


D-2005-030 Independent             Army Audit Agency                 A-2005-0085-FFC Selected
Auditor’s Report on the DoD                                          U.S. Army Corps of Engineers
FY 2004 Detailed Accounting        A-2005-0024-FFH Army              Civil Works Financial
Report of the Funds Expended       Lodging Overhead Costs, Fort      Statements, U.S. Army Corps of
on National Drug Control           Bliss, Texas (10/28/04)           Engineers (01/07/05)
Program Activities (01/26/05)      A-2005-0025-FFH Financial         A-2005-0089-ALT Follow-up
D-2005-031 Endorsement of the      Controls—Club Stewart, Fort       Audit of Aviation Maintenance
Management Letter on Internal      Stewart, Georgia (10/29/04)       Business Practices, Fort Drum,
Controls Over Financial            A-2005-0003-ALA                   New York (01/11/05)
Reporting for the FY 2004 DoD      Realignment Phase 2 Field
Medicare Eligible Retiree                                            A-2005-0067-FFH Follow-up
                                   Operating Agencies, Office of     Audit of Financial Controls—
Health Care Fund Financial         the Administrative Assistant to
Statements (FOR OFFICIAL                                             Golf Course Operations,
                                   the Secretary of the Army         Aberdeen Proving Ground,
USE ONLY) (01/31/05)               (11/04/04)                        Maryland (01/13/05)
D-2005-032 Endorsement of the      A-2005-0042-ALO No-Cost
Deloitte & Touche LLP                                                A-2005-0096-FFH Army
                                   Economic Development              Lodging Overhead Costs, U.S.
Management Letter on the FY        Conveyance Financial
2004 Military Retirement Fund                                        Army Community and Family
                                   Statements, Massachusetts         Support Center (01/20/05)
Financial Statements Opinion       Development Finance Agency,
Audit (FOR OFFICIAL USE            Devens, Massachusetts
ONLY) (01/27/05)                                                     A-2005-0107-ALO Audit of
                                   (11/04/04)                        Reimbursables for Non-Army
D-2005-035 Independent                                               Customers, Fort Bragg, North
                                   A-2005-0044-FFG Fund              Carolina (02/04/05)
Examination of the Existence of    Control Module System,
U.S. Army Corps of Engineers       Requirements Review
Buildings and Other Structures                                       A-2005-0104-ALW Disbursing
                                   (11/16/04)                        Station Expenditure Operations,
(02/15/05)
                                                                     DoD Disbursing Station
                                   A-2005-0047-FFG Army              Number 5570 (02/14/05)
D-2005-036 DoD Civilian            Environmental Database –
Payroll Withholding Data for       Restoration System
FY 2004 (02/17/05)                                                   A-2005-0095-FFG Vested and
                                   Requirements Review               Seized Assets, Operation Iraqi
D-2005-040 Contracts               (11/18/04)                        Freedom (02/16/05)
Classified as Unreconcilable by    A-2005-0055-ALO
the Defense Finance and                                              A-2005-0108-ZBI Intelligence
                                   Reimbursables for Non-Army        Contingency Funds, Summary
Accounting Service Columbus        Customers (11/30/04)
(Contract No. F30602-81-C-                                           Report (CLASSIFIED)
0153) (03/14/05)                                                     (02/23/05)
                                   A-2005-0039-FFH Attestation
                                   Review--Fort Bragg Golf           A-2005-0018-FFG Validation
D-2005-044 Report on the           Course Operations, Fort Bragg,
Attestation of Active and Closed                                     of Completed Tasks for Loan
                                   North Carolina (11/30/04)         Guarantees--Army Chief
Emergency and Extraordinary
(E&E) Fund Accounts (FOR                                             Financial Officer’s Strategic
                                   A-2005-0061-FFG Independent       Plan (03/02/05)
OFFICIAL USE ONLY)                 Auditor’s Report for FY 04
(03/14/05)                         American Red Cross Financial      A-2005-0078-FFG Coalition
                                   Statements (12/02/04)             Provisional Authority Travel
D-2005-046 Independent
Examination of the Rights to                                         Process (03/02/05)
                                   A-2005-0073-FFG Independent
U.S. Army Corps of Engineers       Auditor’s Report, Secretary of    A-2005-0103-FFG Cargo and
Buildings and Other Structures     Defense/Joint Staff Welfare and   Billing System, Requirements
(03/25/05)                         Recreation Association Fund       Validation (03/03/05)
                                   (12/21/04)



                                                  50
Appendix A                                           Semiannual Report for Transmission to Congress


A-2005-0020-FFG Validation        N2005-0035 Unliquidated           Air Force Audit Agency
of Completed Tasks for            Obligations, Commander, U.S.
Accounts Receivable--Army         Atlantic Fleet (03/24/05)         F-2005-0001-FD2000 Medical
Chief Financial Officer’s                                           Personnel Shortages (12/27/04)
Strategic Plan (03/04/05)         Air Force Audit Agency
                                                                    F-2005-0002-FB1000 Selected
A-2005-0127-ALW Validation        F-2005-0001-FB1000 Follow-        Financial Aspects of Pharmacy
of the Army’s Fund Balance        up Audit, Civilian Permanent      Operations (01/05/05)
With Treasury (03/10/05)          Change of Station
                                  Reimbursements (11/24/04)         F-2005-0003-FD2000 Health
A-2005-0129-FFG Follow-up                                           Care Direct Hire Authority
Audit of Stored Value Card        F-2005-0003-FB1000 Follow-        (03/23/05)
(Joint Task Force-Bravo), Soto    up Audit, Travel Pay Controls
Cano Airbase, Honduras            (02/02/05)
                                                                    LOGISTICS
(03/16/05)                        F-2005-0005-FB1000 Air Force
A-2005-0136-ALW Attestation       Centrally Managed Allotments -
                                  First and Second Destination      DoD OIG
Examination of Selected Army
Chief Financial Officers          Transportation (02/03/05)         D-2005-020 Defense Logistics
Strategic Plan Tasks, Fund                                          Agency Processing of Special
                                  F-2005-0001-FB2000
Balance With Treasury                                               Program Requirements
                                  Statement of Budgetary
(03/18/05)                                                          (11/17/04)
                                  Resources (General Fund)
A-2005-0135-FFG Review of         Financial Data Systems            D-2005-037 Implementation of
Army Management Control           (02/02/05)                        Performance-Based Logistics
Process FY 04, Headquarters,                                        for the Javelin Weapon System
                                  F-2005-0002-FB2000 General
Installation Management                                             (03/07/05)
                                  Accounting and Finance
Agency (03/21/05)                 Statement - Rehost Controls       Army Audit Agency
                                  (03/23/05)
Naval Audit Service                                                 A-2005-0052-ALS Validation
N2005-0005 Department of the                                        of Material Weakness --In-
Navy’s Fund Balance with          HEALTH CARE                       Transit Visibility Policies and
Treasury Account (FOR                                               Standards, Office of the Deputy
OFFICIAL USE ONLY)                                                  Chief of Staff, G-4 (11/23/04)
(10/19/04)                        Army Audit Agency
                                  A-2005-0092-FFP Follow-up         A-2005-0058-ALS Training
N2005-0011 Erroneous              Audit of Third Party Claims,      Resource Model Inputs (Price
Payments Made to Navy             Tripler Army Medical Center,      and Credit), U.S. Army Material
Vendors (12/02/04)                Honolulu, Hawaii (01/07/05)       Command (12/14/04)

N2005-0013 Travel Pay             A-2005-0098-FFH Medical           A-2005-0088-ALM Depot
Procedures at Personnel Support   Funding for the Global War on     Level Maintenance for
Activity Detachment New           Terrorism, U.S. Army Medical      Secondary Items, Phase I --
London, CT (12/07/04)             Command (02/02/05)                Repair Versus Procurement
                                                                    Decisions, U.S. Army
N2005-0024 Alleged Cost           Naval Audit Service               Communications-Electronics
Mischarging at Naval Facilities                                     Command (01/11/05)
Engineering Service Center,       N2005-0020 Medical Personnel
Port Hueneme, CA (01/31/05)       Assigned to Nonmedical            A-2005-0099-FFG
                                  Functions (12-23-04)              Management Controls of
N2005-0031 Department of the                                        Wholesale Munitions (02/04/05)
Navy Transportation Incentive
Program at Selected Activities
(03/08/05)



                                                51
Semiannual Report for Transmission to Congress                                           Appendix A


A-2005-0128-ALM Army              F-2005-0005-FC4000 Low            A-2005-0082-ALO Audit of
Diagnostic Improvement            Demand Item Requirements          Enhanced Use Lease Authority
Program, Office of the Product    Computation Accuracy              (12/16/04)
Manager for Test, Measurement     (03/18/05)
and Diagnostic Equipment,                                           A-2005-0083-ALT Army
Redstone Arsenal, Alabama (03/    F-2005-0003-FC2000 Air Force      Military Value Data, The Army
24/05)                            Vehicle Nontaxable Ground         Basing Study 2005 (12/21/04)
                                  Fuel Usage (03/21/05)
Naval Audit Service                                                 A-2005-0113-FFE Range
                                                                    Inventory (02/22/05)
N2005-0010 The Department of      INFRASTRUCTURE AND
the Navy’s Reporting of Depot                                       A-2005-0117-FFC Recreation
                                  ENVIRONMENT
Maintenance Workload                                                Facility Financial and Contract
Allocation Between Public and                                       Management, U.S. Army Corps
Private Sectors (11/16/04)        DoD OIG                           of Engineers, Fort Worth
                                                                    District (03/02/05)
N2005-0027 Hazardous              D-2005-028 DoD Workforce
Material Inventory                Employed to Conduct Public-       A-2005-0124-ALO
Requirements Determination        Private Competitions Under the    Privatization of Family Housing
and Offloads on Aircraft          DoD Competitive Sourcing          (03/04/05)
Carriers and Amphibious           Program (02/01/05)
Assault Ships (02/17/05)                                            A-2005-0118-FFC Recreation
                                  Army Audit Agency                 Facility Financial and Contract
Air Force Audit Agency            A-2005-0027-ALA                   Management, U.S. Army Corps
                                  Environmental/Explosive Safety    of Engineers, Kansas City
F-2005-0001-FC4000 Spare
                                  Requirements for Weapon           District (03/08/05)
Parts Pricing (11/10/04)
                                  Systems, Offices of the           A-2005-0116-FFC Recreation
F-2005-0001-FC2000 Depot          Assistant Secretary of the Army   Facility Financial and Contract
Field Team Operations             (Acquisition, Logistics &         Management, U.S. Army Corps
(11/24/04)                        Technology) and Assistant         of Engineers (03/09/05)
                                  Secretary of the Army
F-2005-0002-FC4000                (Installations & Environment)     A-2005-0119-FFC Recreation
Reparable Asset Warranty          (10/18/04)                        Facility Financial and Contract
Management (11/24/04)
                                                                    Management, U.S. Army Corps
                                  A-2005-0034-FFE Land Use          of Engineers, Vicksburg District
F-2005-0003-FC4000                Controls and Monitoring at
Contractor Inventory Control                                        (03/10/05)
                                  Formerly Used Defense Sites,
Points (11/24/04)                 U.S. Army Corps of Engineers      A-2005-0130-ALO Follow-up
                                  Wilmington District (10/29/04)    Audit of Recommendations in
F-2005-0002-FC2000 Aircraft
Avionics Maintenance                                                Audit Report AA 01-466, Fort
                                  A-2005-0049-ALO Audit of          Benning, Georgia (03/10/05)
(12/13/04)                        Services to General and Flag
                                  Officer Quarters (11/18/04)       Naval Audit Service
F-2005-0004-FC4000
Reparable Item Requirements -     A-2005-0030-FFC Operations        N2005-0001 Military
Repair Cycle Times (02/02/05)     and Maintenance and               Construction, Navy Projects
                                  Maintenance Backlog, U.S.         Proposed for Fiscal Year 2006
F-2005-0004-FC1000 Royal          Army Corps of Engineers,          (10/07/04)
Netherlands Air Force Foreign     Norfolk District (11/23/04)
Military Sales Aerial Tanker                                        N2005-0032 Cost and
Program (Case NE-D-QBF) (02/      A-2005-0056-ALT Army              Management of the Uniform
22/05)                            Capacity Data, The Army           National Discharge Standards
                                  Basing Study 2005 (11/30/04)      for Vessels of the Armed Forces
                                                                    (03/03/05)



                                                 52
Appendix A                                          Semiannual Report for Transmission to Congress


N2005-0033 Late Award of         D-2005-039 Pentagon Force         Army Audit Agency
Facilities, Sustainment,         Protection Agency’s Data Call
Restoration, and Modernization   Submissions and Internal          A-2005-0028-ZBI Property
Projects (03/14/05)              Control Processes for Base        Accountability in Special
                                 Realignment and Closure           Operations Forces Reserve
Air Force Audit Agency           (BRAC) 2005 (EXEMPT               Units, 305th Psychological
                                 FROM RELEASE) (03/11/05)          Operations Company, Upper
F-2005-0002-FD1000 Air Force                                       Marlboro, Maryland (10/25/04)
Center for Environmental         D-2005-041 Defense
Excellence Testing Laboratory    Commissary Agency’s Data          A-2005-0051-ZBI Property
Contracts                        Call Submissions and Internal     Accountability in Special
                                 Control Processes for Base        Operations Forces Reserve
BASE REALIGNMENT                 Realignment and Closure           Units, 312th Psychological
                                 (BRAC) 2005 (EXEMPTFROM           Operations Company, Upper
AND CLOSURE                      RELEASE) (03/15/05)               Marlboro, Maryland (11/17/04)

DoD OIG                                                            Air Force Audit Agency
                                 OTHER
D-2005-038 Defense Prisoner of                                     F-2005-0004-FB1000 Air Force
War/Missing Personnel Office                                       Art Program (02/02/05)
Data Call Submissions and        DoD OIG
Internal Control Processes for   D-2005-042 Controls Over the
Base Realignment and Closure     Export Licensing Process for
2005 (EXEMPT FROM                Chemical and Biological Items
RELEASE) (03/25/05)              (03/30/05)




                                               53
           Appendix B                                                Semiannual Report for Transmission to Congress



                                              APPENDIX B*
                               DOD OIG AUDIT REPORTS ISSUED CONTAINING
                              QUANTIFIABLE POTENTIAL MONETARY BENEFITS




                                                                                        Potential Monetary Benefits
                          Audit Reports Issued                                         Disallowed       Funds Put to
                                                                                              1           Better Use
                                                                                         Costs
 D-2005-020 Defense Logistics Agency Processing of Special Pro-                           N/A                 95,600,000
 gram Requirements (11/17/2004)
 D-2005-022 Contracts Classified as Unreconcilable by the Defense                          N/A                          231,219
 Finance and Accounting Service (Contract No. DAAH01-92-C-
 R399) (12/02/2004)
 Totals                                                                                                            $95,831,219
 1There   were no OIG audit reports during the period involving disallowed costs.

* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(6)
(See Appendix A).




                                                                54
Semiannual Report for Transmission to Congress                                                     Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



         DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
             RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                ($ in thousands)

                                                                                                 Funds Put
                                   Status                                         Number          to Better
                                                                                                    Use1
 A. For which no management decision had been made by the                               20        $137,424
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                      45          95,831
      Subtotals (A+B)                                                                   65         233,255
 C. For which a management decision was made during the reporting                       45         137,655
         period.
      (i)    dollar value of recommendations that were agreed to by
             management
             - based on proposed management action
             - based on proposed legislative action
      (ii)   dollar value of recommendations that were not agreed to by                            137,655
             management
 D. For which no management decision has been made by the end of                        20          95,600
         the reporting period.

      Reports for which no management decision was made within 6
            months of issue (as of September 30, 2004).                                 12               0
 1There
        were no OIG DoD audit reports issued during the period involving “questioned costs.”
 2 OIG DoD Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” issued March 29,
  2004, had no management decision as of March 31, 2005. Action to achieve a decision is on hold pending a
  Secretary of Defense decision on recapitalization of the tanker program.




*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                       55
Appendix D                                                    Semiannual Report for Transmission to Congress

                                            APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED1
                                           ($ in millions)
                            April 1, 2004 through September 30, 2004



                                    Reports             Amounts              Questioned          Funds Put to
     Type of Audit2
                                    Issued              Examined               Costs3             Better Use
 Incurred Costs, Ops                    11,553             $63,201.9               $670.7                $57.44
 Audits, Special Audits
 Forward Pricing                          4,504            $68,871.7                     --           $3,112.55
 Proposals
 Cost Accounting                          1,077                $130.8               $22.7                      --
 Standards
 Defective Pricing                          175               (Note 6)              $17.4                      --
 Totals                                 17,309            $132,204.4               $710.8              $3,169.9
 1This
        schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
  6 months ended March 31, 2005. Both “Questioned Costs” and “Funds Put to Better Use” represent
  potential cost savings. Because of limited time between availability of management information system data
  and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of
  reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
 2This schedule represents audits performed by DCAA summarized into four principal categories, which are

  defined as:
       Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that the
  costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense
  Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost audits are
  Operations Audits, which evaluate a contractor’s operations and management practices to identify
  opportunities for increased efficiency and economy; and Special Audits, which include audits of terminations
  and claims.
         Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
  contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
  by definitized contracts.
        Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes to
  disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
  noncompliance with a CAS regulation.
       Defective Pricing - A review to determine whether contracts are based on current, complete, and accurate
  cost or pricing data (the Truth in Negotiations Act).
 3
  Questioned costs represent costs that DCAA has questioned because they do not comply with rules,
  regulations, laws, and/or contractual terms.
 4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

  that funds could be used more effectively if management took action to implement cost reduction
  recommendations.
 5Represents potential cost reductions that may be realized during contract negotiations.
 6Defective pricing dollars examined are not reported because the original value was included in the audits

  associated with the original forward pricing proposals.




                                                         56
Semiannual Report for Transmission to Congress                                                             Appendix E


                                  APPENDIX E
       STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                                 ($ in millions)
                         Period ending March 31, 2005



                                   Number of                  Costs
                                    Reports                 Questioned                  Disallowed Costs6

Open Reports:

     Within Guidelines2                384                     $674.9                            N/A7
     Overage, greater than 6           329                      $975                             N/A
     months3
     Overage, greater than             214                     $416.4                            N/A
     12 months4

     In Litigation5                    102                     $1,854.6                          N/A

Total Open Reports                    1,029                    $3,920.9                          N/A
Closed Reports                         282                      $491                      $158.8 (32.34%)
All Reports                           1,311                    $4,411.9                          N/A
 1
  This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
  and noncompliance with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense
  Contract Management Agency, and TRICARE. The Army was unable to submit its data by the date required for
  inclusion in the schedule. Contract audit follow-up is reported in accordance with DoD Directive 7640.2, “Policy
  for Follow-up on Contract Audit Reports.” Because of limited time between availability of the data and reporting
  requirements, there is minimal opportunity to verify the accuracy of the reported data.
 2These reports are being processed within the time frames established by OMB Circular A-50, “Audit Follow-up,”
  and DoD Directive 7640.2 as described in footnotes 3 and 4 below.
 3
   OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)
  within 6 months after report issuance.
 4
   DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
  issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
  negotiates a settlement with contractor, or the report is superseded.
 5
   Of the 102 reports in litigation, 11 are under criminal investigation.
 6
   Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
 7N/A (not applicable)




                                                          57
                                                    Semiannual Report for Transmission to Congress




              Waivers of Advisory and Assistance Service Contracts

A review is made of each waiver granted by the Department for advisory and assistance
services contracts related to testing support. This review is required by Section 802, Defense
Authorization Act for Fiscal Year 1990.

The Department made no waivers during the period and therefore, no reviews were made by
the OIG.




                                               58
